<html>
<title> - ISSUES AT THE NORTHERN BORDER</title>
<body><pre>[House Hearing, 107 Congress]
[From the U.S. Government Printing Office]



 
                     ISSUES AT THE NORTHERN BORDER
=======================================================================

                                HEARING

                               before the

                   SUBCOMMITTEE ON CRIMINAL JUSTICE,
                    DRUG POLICY AND HUMAN RESOURCES

                                 of the

                              COMMITTEE ON
                           GOVERNMENT REFORM

                        HOUSE OF REPRESENTATIVES

                      ONE HUNDRED SEVENTH CONGRESS

                             FIRST SESSION

                               __________

                            OCTOBER 29, 2001

                               __________

                           Serial No. 107-108

                               __________

       Printed for the use of the Committee on Government Reform


  Available via the World Wide Web: http://www.gpo.gov/congress/house
                      http://www.house.gov/reform








                       U. S. GOVERNMENT PRINTING OFFICE
81-865                          WASHINGTON : 2002
___________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512-1800  
Fax: (202) 512-2250 Mail: Stop SSOP, Washington, DC 20402-0001






                     COMMITTEE ON GOVERNMENT REFORM

                     DAN BURTON, Indiana, Chairman
BENJAMIN A. GILMAN, New York         HENRY A. WAXMAN, California
CONSTANCE A. MORELLA, Maryland       TOM LANTOS, California
CHRISTOPHER SHAYS, Connecticut       MAJOR R. OWENS, New York
ILEANA ROS-LEHTINEN, Florida         EDOLPHUS TOWNS, New York
JOHN M. McHUGH, New York             PAUL E. KANJORSKI, Pennsylvania
STEPHEN HORN, California             PATSY T. MINK, Hawaii
JOHN L. MICA, Florida                CAROLYN B. MALONEY, New York
THOMAS M. DAVIS, Virginia            ELEANOR HOLMES NORTON, Washington, 
MARK E. SOUDER, Indiana                  DC
STEVEN C. LaTOURETTE, Ohio           ELIJAH E. CUMMINGS, Maryland
BOB BARR, Georgia                    DENNIS J. KUCINICH, Ohio
DAN MILLER, Florida                  ROD R. BLAGOJEVICH, Illinois
DOUG OSE, California                 DANNY K. DAVIS, Illinois
RON LEWIS, Kentucky                  JOHN F. TIERNEY, Massachusetts
JO ANN DAVIS, Virginia               JIM TURNER, Texas
TODD RUSSELL PLATTS, Pennsylvania    THOMAS H. ALLEN, Maine
DAVE WELDON, Florida                 JANICE D. SCHAKOWSKY, Illinois
CHRIS CANNON, Utah                   WM. LACY CLAY, Missouri
ADAM H. PUTNAM, Florida              DIANE E. WATSON, California
C.L. ``BUTCH'' OTTER, Idaho          ------ ------
EDWARD L. SCHROCK, Virginia                      ------
JOHN J. DUNCAN, Jr., Tennessee       BERNARD SANDERS, Vermont 
------ ------                            (Independent)


                      Kevin Binger, Staff Director
                 Daniel R. Moll, Deputy Staff Director
                     James C. Wilson, Chief Counsel
                     Robert A. Briggs, Chief Clerk
                 Phil Schiliro, Minority Staff Director

   Subcommittee on Criminal Justice, Drug Policy and Human Resources

                   MARK E. SOUDER, Indiana, Chairman
BENJAMIN A. GILMAN, New York         ELIJAH E. CUMMINGS, Maryland
ILEANA ROS-LEHTINEN, Florida         ROD R. BLAGOJEVICH, Illinois
JOHN L. MICA, Florida,               BERNARD SANDERS, Vermont
BOB BARR, Georgia                    DANNY K. DAVIS, Illinois
DAN MILLER, Florida                  JIM TURNER, Texas
DOUG OSE, California                 THOMAS H. ALLEN, Maine
JO ANN DAVIS, Virginia               JANICE D. SCHAKOWSKY, Illinois
DAVE WELDON, Florida

                               Ex Officio

DAN BURTON, Indiana                  HENRY A. WAXMAN, California
          Christopher Donesa, Staff Director and Chief Counsel
                          Conn Carroll, Clerk













                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on October 29, 2001.................................     1
Statement of:
    Dambrosio, Michael, District Field Officer, U.S. Customs 
      Service....................................................    10
    Douglas, Garry F., president and CEO, Plattsburgh-North 
      Country Chamber of Commerce................................    36
    Duford, Carl, president, Champlain chapter, American 
      Federation of Government Employees, Immigration and 
      Naturalization Service Council.............................    56
    Holmes, M. Frances, District Director, Immigration and 
      Naturalization Service.....................................    18
    Keefe, Thomas, president, St. Lawrence Chapter 138, National 
      Treasury Employees Union...................................    47
    Stafford, Ronald, Senator from the 45th District, in the 
      State of New York..........................................     9
Letters, statements, etc., submitted for the record by:
    Dambrosio, Michael, District Field Officer, U.S. Customs 
      Service, prepared statement of.............................    13
    Douglas, Garry F., president and CEO, Plattsburgh-North 
      Country Chamber of Commerce, prepared statement of.........    42
    Duford, Carl, president, Champlain chapter, American 
      Federation of Government Employees, Immigration and 
      Naturalization Service Council, prepared statement of......    59
    Holmes, M. Frances, District Director, Immigration and 
      Naturalization Service, prepared statement of..............    20
    Keefe, Thomas, president, St. Lawrence Chapter 138, National 
      Treasury Employees Union, prepared statement of............    49
    McHugh, Hon. John M., a Representative in Congress from the 
      State of New York, prepared statement of...................     5













                     ISSUES AT THE NORTHERN BORDER

                              ----------                              


                        MONDAY, OCTOBER 29, 2001

                  House of Representatives,
 Subcommittee on Criminal Justice, Drug Policy and 
                                   Human Resources,
                            Committee on Government Reform,
                                                     Champlain, NY.
    The subcommittee met, pursuant to notice, at 9:30 a.m., at 
the U.S. Customs Station, Champlain, NY, Hon. Mark E. Souder 
(chairman of the subcommittee) presiding.
    Present: Representatives Souder and McHugh.
    Staff present: Chris Donesa, staff director; and Conn 
Carroll, clerk.
    Mr. Souder. Good morning, and thank you all for coming. 
Today our subcommittee will explore the status of the 
Champlain, NY, border crossing. We have invited representatives 
of the U.S. Customs Service, the U.S. Marshals Service and the 
Immigration and Naturalization Service, which also administers 
the U.S. Border Patrol, to testify here today, and we thank Mr. 
Michael Dambrosio, District Field Director at U.S. Customs, and 
Ms. Frances Holmes, District Director at INS, for being here 
today. We are also pleased to have with us representatives of 
the employees of these two agencies, Mr. Carl Duford, an INS 
inspector and president of the Champlain Chapter of the 
American Federation of Government Employees, and Mr. Thomas 
Keefe, a Customs inspector and president of the St. Lawrence 
Chapter 138 of the National Treasury Employees Union. The 
subcommittee is vitally interested in ensuring the effective 
functioning of these agencies, and we will continue to work 
with them and their employees to ensure the continued security 
and effective administration of our Nation's border.
    We've also been joined by Senator Ron Stafford, Head of the 
Senate Finance Committee, and look forward to having his 
opening welcome here in a few minutes, and for his leadership 
in the State legislature, I'm sure on a regular basis, with 
these issues that we only occasionally deal with in Washington.
    When examining border policies, we must also seek the input 
of representatives of the local community, particularly the 
business community, whose livelihood is directly affected by 
changes at the border. We also welcome Mr. Garry Douglas, 
executive director of the Plattsburgh-North Country Chamber of 
Commerce. We thank everyone for taking the time this morning to 
join us for this important discussion.
    Even before the terrorist attacks of September 11, 2001, 
this subcommittee was considering ways to improve both the 
security of our Nation's borders and the efficient flow of 
international commerce, travel and tourism. Continuing problems 
with illegal immigration and the smuggling of drugs and other 
contraband over the southern and northern borders, and the 
threat of terrorism, have prompted calls to hire more Federal 
law enforcement officers and to expand the physical and 
technological infrastructure needed to allow those officers to 
work effectively.
    The attacks of September 11th have emphasized the necessity 
of dealing with the terrorist threat as well as the problems of 
narcotics interdiction and illegal immigration. At the same 
time, long delays at border crossings resulting from the 
increased security measures put in place after September 11th 
have raised concerns about the effect of these policies on 
trade, tourism and travel. Congress has been considering 
numerous proposals to deal with these problems. For example, 
the House of Representatives and the Senate have now both 
passed anti-terrorist legislation that, among other measures, 
would authorize the tripling of Border Patrol agents along the 
northern border. It is unclear, however, how quickly any of 
these agencies can meet these requirements. Moreover, it is 
unclear what the impact of the new emphasis on anti-terrorism 
will be on personnel decisions at each of these agencies.
    This hearing and the hearing held yesterday at Highgate 
Springs, VT, are the first in a series of field hearings which 
will be held by this subcommittee at border crossings and ports 
of entry throughout the United States. At each such location, 
this subcommittee will assess the problems facing the Federal 
agencies, local lawmakers, and community and business leaders, 
with respect to border policy. We will focus on what new 
resources are needed for the Federal Government most 
effectively to administer the border crossing, as well as what 
new policies could be pursued to ease the burdens being placed 
on commerce, travel and tourism. We will also explore how the 
new emphasis on preventing terrorism may affect the ability of 
these agencies to carry out their other vital missions.
    These issues are all extremely important and extremely 
urgent, and I look forward to hearing from our witnesses today 
about ways to address them. And I want to add, too, that what 
precipitated this series, in addition to our oversight 
responsibilities over justice and commerce and the narcotics 
issue, is a U.S.-Canada Parliamentary Exchange Group last May.
    I cochaired the transborder section of that Parliamentary 
Group, and we had agreed to hold several hearings along the 
northern border about problems we were having already, in 
trying to make sure that we could facilitate ease of movement 
and meet the needs that we were asking along the border, prior 
to September 11th, which only put more pressure on the borders.
    Also then with the U.S.-Mexico Parliamentary Group, we've 
agreed to do a number of hearings on the southern border. In 
December, we'll be in Brownsville, Laredo and McAllen on the 
Monterey corridor; then the second week of December, up in the 
Vancouver corridor and Puget Sound, looking at Coast Guard 
questions, as well as the Blaine border crossing. We'll also be 
doing Detroit, Niagara Falls and Buffalo, where we've worked 
with the people there. In San Diego and El Paso, analogous 
section, so we're going to systematically, over the next--we 
were going to do it over 12 months; we're now going to push for 
a 5-month--and this is our first region that we're holding the 
hearings, yesterday in Highgate and today here, and we're 
visiting some of the border crossings in between, as well as 
with the Border Patrol and with the Coast Guard in each area to 
learn where the gaps are. When you put pressure on one point, 
it tends to move to another point, and if we're not thinking a 
step ahead in both how to accommodate commerce and to protect 
the citizens of the United States, we'll fall behind.
    With that, I'd like to yield to my friend, Congressman 
McHugh, a more senior member of the committee. Also has been a 
long-tem subcommittee chair before he went over to Armed 
Services and a leadership position there, too.
    Mr. McHugh. Thank you very much, Mr. Chairman. More senior 
means older, I take it, and I appreciate that. Mr. Chairman, I 
have a prepared statement that I would ask unanimous consent be 
entered in its entirety and just make a few comments, if I 
might.
    Mr. Souder. Sure.
    Mr. McHugh. First of all, I want to add my words of 
appreciation and welcome that you have just stated to all of 
our panelists here today. We do look forward to their comments, 
and a special welcome to my former colleague in the State 
Senate, Ron Stafford, who certainly needs no introduction nor 
explanation to these good folks of the terrific job he does, 
not just for this region, although he certainly does that, but 
for the entire State, so welcome to all of you.
    But as well, Mr. Chairman, I want to express both my words 
of welcome and appreciation to you. All of us who've had the 
honor of serving in any legislative body always think of our 
districts that we represent as someplace special, and I'm 
certainly no exception to that. I hope that during your 
travels, as hectic as they have been, you've had a chance to 
see the true beauty of this region. We hope you had a chance to 
enjoy it. If not, please come back. There's about 13,000 square 
miles of the 24th District to the south and west of here that 
we think are equally as special, as well. But I particularly 
appreciate the effort that you've made to be here.
    You mentioned yesterday your hearing at Highgate Springs. I 
know last evening you had an opportunity to go up into Canada 
and meet some of the folks up there. We were thrilled they let 
you back in here to our side of the border. And I have long 
been very impressed with the very ambitious hearing schedule 
that you defined here this morning, and it speaks very highly 
of your commitment, and more importantly your understanding of 
the very formidable issues that face us. As you noted, Mr. 
Chairman, through your work, September 11th, while bringing 
unimaginable and truly profound changes to this country, was 
not really the beginning of the challenges that we're facing 
along both the northern and the southern border, but I think it 
has brought new focus to the challenges here in the northern 
border region.
    This issue has really been at the core of focus for many of 
us for some time now, working with great leaders like Governor 
Pataki, Senator Stafford, Chris Ortloff; with the local 
government representatives here in the North Country of Clinton 
and Essex Counties in particular, with our partners on the 
Canadian side, and of course, with the business community, from 
whom we'll hear here today. We've had some success. We've 
initiated what we're calling a Border of Excellence that will, 
when completed, produce about a $30 million program designed to 
modernize and to streamline the facilities located here at 
Champlain.
    But the fact of the matter is, new buildings, new 
processing lanes, safer approaches, for all of their 
importance, are simply not enough. The Federal officials that 
staff this crossing, all of the crossings across the northern 
border, have been and remain simply amazing. Long hours, very 
effective work, often thankless tasks with incredible 
efficiency and with incredible effectiveness. This border 
spans, as you know, some 4,000 miles, and yet when you look at, 
in just one area alone, the Customs area, only 14 percent of 
the assigned inspectors nationwide are stationed along that 
northern border. Only some 1,000 inspectors. And if you compare 
that to a place like JFK International Airport, where there are 
500 inspectors at that one point, we can begin to better 
understand the very difficult manpower challenge that these 
good folks face.
    Yes, we need better facilities. We need safer access. We 
need, clearly, the latest in technology. But most importantly, 
in my opinion, we need the personnel who can make these 
crossings work and who can keep our borders safe, and at the 
same time, as you noted, Mr. Chairman, keep them effectively 
processing that flow of commerce.
    The Canadians are, as I mentioned, our partners in this 
effort. Ours is an extraordinary relationship. We are each 
other's largest trading partners. And while I'll defer to the 
Canadians to describe their perspective, but to those of us 
here in the North Country, they are our partners, they are our 
welcome neighbors, and they represent, collectively, an 
irreplaceable thread in the economic fabric of our region.
    Mr. Chairman, during a brief conversation we had just last 
week off the House floor in the Speaker's lobby, I was very 
impressed with your comments about the critical nature of 
balancing security with the essential flow of commerce, and I 
couldn't agree more, and that, it seems to me, is our two-part 
challenge. And I know, Mr. Chairman, that's your objective, as 
well. And while we deeply appreciate your making the effort to 
bring this subcommittee here to help fill in the pieces of this 
puzzle that is obviously in all our interests to solve, and 
like you, Mr. Chairman, I look forward to hearing from our 
witnesses to learn their perspectives, hopefully to borrow from 
their expertise, so that we can forge an effective policy to 
meet this very critical challenge. So thank you, Mr. Chairman, 
and I look forward to the hearing ahead.
    [The prepared statement of Hon. John M. McHugh follows:]



    [GRAPHIC] [TIFF OMITTED] 81865.001
    
    [GRAPHIC] [TIFF OMITTED] 81865.002
    
    [GRAPHIC] [TIFF OMITTED] 81865.003
    
    [GRAPHIC] [TIFF OMITTED] 81865.004
    
    Mr. Souder. I'd like to do a few procedural matters. I ask 
unanimous consent that all Members have five legislative days 
to submit written statements and questions for the hearing 
record and that any answers to written questions provided by 
the witnesses also be included in the record. I also ask 
unanimous consent that all exhibits, documents and other 
materials may be included in the hearing record, and that all 
Members be permitted to revise and extend their remarks without 
objection is so ordered.
    Also, for the record, I ask unanimous consent that Mr. 
McHugh, a member of the full committee, be permitted to 
participate in this subcommittee hearing.
    Now, as a government-formed oversight committee, it's our 
general practice that all witnesses have to be sworn in and 
testify under oath, so if you could each stand and raise your 
right hands?
    [Witnesses sworn.]
    Mr. Souder. Let the record show that the witnesses have 
each answered in the affirmative. Our committee, for those of 
you who aren't familiar, when the Republicans took over 
Congress, this was one of the more infamous committees, that we 
started with Waco and proceeded into the travel office 
investigations, all sorts of different investigation-type 
things, which is why we, as an oversight committee, have to do 
the swearing in.
    But Senator Stafford, it's a great honor to have you here 
today. You've been a long-time respected leader in this area, 
and if you'd like to make a few opening comments, we'd be 
privileged to hear them.

 STATEMENT OF RONALD STAFFORD, SENATOR FROM THE 45TH DISTRICT, 
                    IN THE STATE OF NEW YORK

    Mr. Stafford. Thank you, Mr. Chairman. So now I'm under 
oath, so I have to be careful what I say about Mr. McHugh, but 
on a serious note, we all receive many, many invitations to 
attend a number of gatherings, meetings, that type of thing, 
and we certainly can't go to all of them, and I think even my 
staff had indicated that we had a conflict, and I changed that, 
because I wanted to be here personally, first to thank you, Mr. 
Chairman, Chairman Souder, and Congressman McHugh, for being 
here today, and you're here considering issues that are so 
important to our area. You can see why John is so well 
respected and we think so much of him in this area. The 
statement he made covered it very well. My dad was a Clinton 
County farmer, he had a lot of sense, and he always said that 
it's always good to keep your mouth closed and let people think 
you don't know anything than to open it and remove all doubt, 
so I won't get into real specifics here. You will have 
professionals here, others here in this area talking with you, 
testifying.
    But again, I certainly want to compliment those in our 
area. Garry Douglas--I've mentioned one name, so I should 
mention about 20--but all here who have been so concerned about 
the problems and issues you're here today to consider, as I've 
mentioned. John, I think, has mentioned this. It isn't 
difficult. We're here between New York City and Montreal, two 
of the major cities on the North American continent, and we're 
here right in the main line of travel. We trust you will use 
good judgment.
    I know Congressman McHugh has been right in the forefront 
and has been talking to you, Mr. Chairman, and others.
    You'll find our people here very knowledgeable. They know 
exactly what they're talking about. And as John mentioned, we 
hope you will come back, and I'm sure, out of this meeting and 
others, we'll have some decisions which make it possible, as 
John said, for our people who work here who do such a 
tremendous job, challenged in so many ways and hours and other 
areas. And with that, I will let those who are going to testify 
concerning some of the specifics and some of the others--not 
let them--but I will make it possible for them to testify, and 
thank you for being here from Wendell Wilke's State. We all 
thought a great deal of him up here in Clinton County. And on 
the other hand, you've had some other great people from 
Indiana, and as you mentioned earlier, Notre Dame will be back. 
But thank you so much for being with us, and John, thank you 
very much for being here.
    Mr. Souder. I thank you, and I know that your schedule's 
tight, and we appreciate you working this in, and at whatever 
point you need to leave, and if you want to make additional 
comments as we go.
    Mr. Stafford. Thank you.
    Mr. Souder. But we really recognize that what we do here at 
the Federal level has a huge impact in every State and local 
area. It's important that we work together on the questions 
involved, because one of the side tragedies of the major attack 
is what's happening to our economy, and if we can't figure out 
how to keep people working and in their homes and getting their 
bills paid----
    Mr. Stafford. That's right.
    Mr. Souder. It will all come to naught in our security 
efforts.
    Mr. Stafford. Thank you.
    Mr. Souder. Mr. Dambrosio.

 STATEMENT OF MICHAEL DAMBROSIO, DISTRICT FIELD OFFICER, U.S. 
                        CUSTOMS SERVICE

    Mr. Dambrosio. Good morning. Thank you for your invitation 
to testify and for providing me the chance to appear before you 
today. I would like to discuss the efforts of the U.S. Customs 
Service to address the terrorism threat and the challenges that 
exist along the U.S.-Canada border, commonly called the 
northern border.
    As the guardian of our Nation's borders, Customs plays a 
major role in the great struggle against the forces of terror 
in which America is now engaged. The Customs Service enforces 
over 400 laws and regulations for more than 40 Federal 
agencies. Naturally, the northern border is a major focus of 
our efforts. Protecting our broad expanding economic ties with 
Canada, while preventing terrorists from exploiting increased 
traffic flows, is a key goal for the northern border.
    The immense flow of trade and travel between the United 
States and Canada requires that our two nations continue to 
work together to enhance the protection of our vital interests 
at this critical time. Trade and travel between the United 
States and Canada has jumped dramatically since the 
implementation of the North American Free Trade Agreement in 
1994. The Port of Champlain alone now clears approximately 
400,000 trucks and nearly 1 million vehicles a year. Champlain 
is also on a major highway that connects the large metropolitan 
areas of Montreal and New York City and points beyond.
    The Customs Service was addressing security along our 
frontier with Canada well before the attacks of September 11th. 
The previous arrest of an Algerian terrorist, the millennium 
bomber Ahmed Ressam, by Customs inspectors at Port Angeles, WA, 
in December 1999, is an example of our previous efforts. That 
arrest also set into motion a range of measures to bolster 
security along our northern flank.
    In response to the terrorist attacks of September 11th, the 
U.S. Customs Service immediately implemented a level one alert 
for all personnel and ports of entry. This is our highest state 
of alert calling for sustained, intensive anti-terrorist 
operations. We remain at level one alert today.
    Under level one alert, all ports of entry have increased 
vehicle, passenger, cargo, and mail examinations commensurate 
with the threat at their location. On the northern border, we 
have suspended remote inspection reporting systems and are 
staffing every port of entry with at least two officers, 24 
hours per day, 7 days per week. In order to meet the demands of 
maintaining this highest state of alert, nearly 100 additional 
Customs inspectors have been temporarily detailed to northern 
border posts to ensure that this minimum staffing requirement 
applies even to our most remote locations.
    In addition to the Customs Service's enhanced efforts, and 
in keeping with the tradition of partnership that has always 
marked the close relationship between our two nations and 
Customs agencies, Canada Customs has pledged their full support 
and cooperation in preventing terrorists and the implements of 
terrorism from transiting our northern border. We are working 
on a priority basis with Canada to identify additional steps to 
be taken now to enhance security. We have also been asking for 
the public's and the trade community's patience as we work to 
protect our Nation from the immediate threat without turning 
our border into an obstacle to legitimate trade or our 
lifetime's freedom of movement, although traffic volume is 
markedly lower since then.
    Despite initial concerns about our level one alert placing 
an undue burden upon normal border flows, we have in fact 
succeeded in reducing waiting times at the border to the levels 
they were at prior to the September 11th attacks. Cooperation 
with our partners from Customs Canada and in the business 
community has been instrumental to our success.
    As some of you may know, some of our Customs facilities on 
the northern border need to be updated. To improve these 
facilities, Customs recently was provided with $20 million for 
resources and technology to support northern border security 
and aging infrastructure. Equipment will be deployed to various 
northern border locations. For example, at the port of 
Champlain, construction has started for the installation of a 
vehicle and cargo inspection system, or VACIS for short. When 
completed, this will be the first permanent truck x-ray 
facility on the northern border. A portable version of this 
technology is being procured for Champlain, and should arrive 
at the port by the end of this calendar year. Customs 
inspectors at the port of Champlain are also currently using 
other technology, including radiation detectors to detect 
radioactive material used for weapons of mass destruction, and 
vapor trace technology to help us detect the presence of 
narcotics.
    In addition, the Customs Service plans to use part of this 
$20 million in new funding to enhance the security of the ports 
of entry all along the northern border by investment in key 
elements of infrastructure. There are many roads that connect 
to the border which are unmonitored and allow for individuals 
or small groups to gain entry undetected. Most remote, limited-
hour ports of entry have no monitoring or assessment 
capabilities. Our infrastructure investments will be 
prioritized to those locations that have the highest risk.
    The Customs Service plans to install digital video security 
systems which can call remote monitoring locations, when they 
are enabled, at selected locations. These systems will 
complement pre-existing remote video inspection system sites. 
The Customs Service also plans to install additional lighting 
and appropriate barriers, gates, and bollards at those 
locations that lack barriers, to prevent unauthorized vehicle 
crossings, and to increase officer safety and deny anonymity to 
law violators.
    From an overall perspective, the vast volume of trade and 
traffic on our northern border has put immense pressure on our 
ability to enforce the Nation's laws while facilitating 
international trade, even before September 11th. After 
September 1th, our challenge has risen to a new level. Although 
we have taken many steps to address these challenges, such as 
the planned improvements to our facilities and the temporary 
detailing of additional Customs inspectors to northern border 
posts, we still face many challenges.
    We are working within Treasury and the administration to 
address these challenges. For example, we are developing threat 
assessments and a longer-term perimeter security strategy for 
dealing with them, to secure our homeland defenses, including 
the northern border. In considering such a long-term plan, 
several core questions will need to be addressed. First, how do 
we measure the added protection or risk reduction we will 
realize from additional investments on the border? How will 
Customs' plans properly interact and integrate with the other 
border agencies, the intelligence community, and the Department 
of Defense? What are alternative means of securing our far-
flung border crossings? What is the best system for examining 
the vast amounts of cargo coming across the border?
    I want to thank you, Mr. Chairman, and Congressman McHugh, 
for this opportunity to testify. The U.S. Customs Service will 
continue to make every effort possible, working with our fellow 
inspection agencies within the administration and with 
congressional leaders, our Canadian counterparts, to address 
your concerns and those of the American people.
    I would be happy to answer any questions you might have.
    [The prepared statement of Mr. Dambrosio follows:]
    [GRAPHIC] [TIFF OMITTED] 81865.005
    
    [GRAPHIC] [TIFF OMITTED] 81865.006
    
    [GRAPHIC] [TIFF OMITTED] 81865.007
    
    [GRAPHIC] [TIFF OMITTED] 81865.008
    
    [GRAPHIC] [TIFF OMITTED] 81865.009
    
    Mr. Souder. Thank you. Ms. Holmes.

STATEMENT OF M. FRANCES HOLMES, DISTRICT DIRECTOR, IMMIGRATION 
                   AND NATURALIZATION SERVICE

    Ms. Holmes. Mr. Chairman and Congressman McHugh, thank you 
for inviting me here today to address you on behalf of the U.S. 
Immigration and Naturalization Service. The INS, which is part 
of the Department of Justice, has a staff of over 30,000 people 
who enforce the Immigration and Nationality Act. Their duties 
include the inspection of persons applying for admission to the 
United States, facilitating the legal entry of persons into the 
United States, detecting illegal entry, arresting and deporting 
criminal aliens, and naturalizing legal permanent residents for 
U.S. citizenship. The uniformed inspections branch of INS 
provides the staffing at our Nation's ports of entry. 
Additional staff is assigned to the investigations, detention 
and removal, adjudications, and administrative support sections 
of the INS.
    The U.S.-Canada border is over 4,000 miles long. The INS-
Buffalo District portion of this border extends from the 
Vermont/Lake Champlain border, west to Buffalo and Lake Erie. 
The district extends south to just north of New York City in 
the east and includes Binghamtom in the west. The District 
Office is located in Buffalo and there is a sub-office in 
Albany. Small offices serve the public in Syracuse and 
Rochester. There are 16 major land border ports of entry and 
multiple harbors where pleasure boats and commercial vessels 
arrive and are inspected. Additionally, we staff Amtrak 
stations in two locations on the border and undertake 
immigration preclearance activities at Canadian airports in 
Ottawa, Montreal and Toronto. We have 289 full-time Inspections 
staff and additional part-time or seasonal staff. In fiscal 
year 2001, the Buffalo District completed 40 million 
inspections.
    The Champlain port of entry is located 45 miles south of 
Montreal and 350 miles north of New York City. It is located at 
Interstate Highway 87, which connects these two cities. The 
current Champlain facility opened in August 1973 and is 
scheduled for modification and expansion in the coming years as 
funds are allocated.
    The INS management staff at Champlain provides oversight to 
ports of entry from Rouses Point, which is adjacent to Lake 
Champlain, to Fort Covington in the west, and to ports of entry 
in between. There are currently 38 full-time permanent staff 
here, with additional part-time staff.
    The Champlain staff is responsible for conducting 
inspections of the Amtrak train, which arrives daily from 
Montreal at Rouses Point. It also inspects pleasure boats from 
Canada which arrive on Lake Champlain. Our primary activity, 
however, is inspecting arriving passengers in private vehicles. 
We complete this work with the U.S. Customs Service, and the 
Department of Agriculture's Animal and Plant Inspection Service 
makes up the third government agency which conducts inspections 
here at Champlain. Besides the inspection of arriving persons, 
the INS Champlain also handles a significant number of aliens 
and U.S. citizens returned from Canada under the U.S.-Canada 
reciprocal agreement. Of these aliens, about 300 annually are 
denied refugee status in Canada and are returned to us just 
here at this port of entry, and they require interviewing to 
determine if they are allowed to be in the United States. Some 
are processed for removal hearings from the United States and 
some are held in custody.
    Over the last few years, we have seen a decline in the 
number of inspections performed by our inspectors here at 
Champlain. For example, 5 years ago, in fiscal year 1996, this 
master port, the larger port, performed over 5.5 million 
inspections. In fiscal year ending 2001, that figure was 
slightly over 3.8 million inspections.
    INS Champlain has held three stakeholder meetings in 2001 
to meet with individuals, local employers, trucking 
associations, the Plattsburgh Chamber of Commerce, and other 
interested parties to improve the processing of applicants for 
admission at the port of entry. Suggestions have been received 
and implemented. The management staff is committed to 
facilitating admissible applicants, while enforcing the laws 
and regulations of the Immigration and Nationality Act.
    In response to the terrorist attacks of September 11, 2001, 
there has been increased vigilance at the border. Annual leave 
of inspectors has been canceled. Overtime has increased, and 
additional staff has been detailed to enhance border security. 
We remain cognizant that legitimate cross-border traffic must 
be allowed, while ensuring persons who are inadmissible or who 
wish to harm this country will be denied entry. Staffing has 
been doubled at the small ports of entry so that no inspector 
works alone. More applicants for admission are checked through 
law enforcement data bases, and all adult applicants are asked 
to produce government-issued identification. Trunks of 
passenger cars are opened and contents scanned.
    Within the first few days following September 11th, there 
were traffic delays. Today, however, there are minimal waits 
for passenger cars--in most cases, under 10 minutes. Lanes are 
opened and closed based on need. The Immigration and 
Naturalization Service remains committed to securing the 
borders of this country against those who wish to harm it.
    The INS Buffalo District was pleased to receive one 
additional inspector for Champlain during the fiscal year 2001, 
and a total of eight for our district land border ports. We are 
proud of the service we provide to the public at the U.S.-
Canada border, and look forward to working with the Congress to 
keeping up that level of service and to help protect the 
security of our Nation. The administration's request for 
additional staff and technology resources is of the utmost 
importance now. Additional resources will greatly assist the 
INS in securing the border, without closing it.
    Thank you, Mr. Chairman, for allowing us to give testimony 
regarding the Champlain corridor and the Buffalo District 
border operations.
    [The prepared statement of Ms. Holmes follows:]
    [GRAPHIC] [TIFF OMITTED] 81865.010
    
    [GRAPHIC] [TIFF OMITTED] 81865.011
    
    [GRAPHIC] [TIFF OMITTED] 81865.012
    
    [GRAPHIC] [TIFF OMITTED] 81865.013
    
    [GRAPHIC] [TIFF OMITTED] 81865.014
    
    [GRAPHIC] [TIFF OMITTED] 81865.015
    
    Mr. Souder. Thank you all for your testimony. I'd like to 
start with a few clarification questions. Thank you, Senator.
    In your district for Customs, do you go also to Buffalo, or 
do you go Eastern Great Lakes?
    Mr. Dambrosio. It's all of New York State. It's the same as 
Ms. Holmes's areas. All of New York State except for New York 
City, so my office is just on the outskirts of Buffalo.
    Mr. Souder. If both of you could provide for the record 
some indication, in your regions, of the amount of traffic at 
the different points so we can kind of get a feel. We 
originally were going to start with the Buffalo/Niagara Falls 
crossings, and when I could work out the times with 
Congressmen, we couldn't work them out with the Canadian 
Parliamentarians. Both of us had to cancel one time. So we will 
be doing another hearing in that zone, but I'm particularly 
interested, if I can ask a couple questions on the area between 
here and Buffalo. Where would the largest crossing be between 
here and Buffalo?
    Ms. Holmes. Well, it's the greater Buffalo area between the 
Peace Bridge and the bridges at Niagara Falls.
    Mr. Souder. But is Kingston, along the St. Lawrence River--
--
    Mr. Dambrosio. Yes, and Congressman McHugh's area. 
Actually, our answers will be different because for commercial 
purposes, the largest crossing is at Alexandria Bay, but for 
private vehicles, it's at Massena.
    Ms. Holmes. Are you talking other than Champlain?
    Mr. Souder. Yes, between Champlain and Buffalo, that area 
of New York State. And in those crossings, how--for example, 
Alexandria Bay--how does that in size compare with Champlain 
for Customs?
    Mr. Dambrosio. OK, at----
    Mr. Souder. You said yours is Alexandria Bay and yours 
would be Massena?
    Ms. Holmes. For passengers would be Massena, NY.
    Mr. Souder. But Alexandria Bay, how does it compare to 
Champlain, roughly?
    Mr. Dambrosio. In terms of traffic volume?
    Mr. Souder. Yes.
    Mr. Dambrosio. At Alexandria Bay, roughly 150,000 to 
200,000 trucks a year; roughly 500,000 to 700,000 vehicles per 
year. Let me just clarify that the port of Champlain provides 
commercial support for Alexandria Bay, because Customs is 
engaged in commercial activities, which Immigration Service is 
not. The port of Champlain has a commercial staff which 
consists of import specialists and entry control specialists, 
who provide the commercial coverage that goes all the way west 
to Alexandria Bay, and we have large commercial operations at 
Alexandria Bay, Ogdensburg, at the Peace Bridge, Massena, and a 
small operation at Chateaugay, NY. So the volume that's handled 
there is handled by inspectors for release purposes, but the 
entire range of commercial processing is handled here at 
Champlain.
    After the release takes place, there's what's called an 
entry summary. It's the assessment of duty, correct country of 
origin; all of the work that goes into finalizing the 
importation is done here at Champlain.
    Mr. Souder. And just to kind of get a context for me in the 
size of that operation, if you put them all together, is that 
roughly half of Buffalo-Erie, or more than half?
    Mr. Dambrosio. May I look at some data that I have here?
    Mr. Souder. Sure. Let me ask you a couple of the same 
questions, Ms. Holmes. On Massena, do you handle it similarly?
    Ms. Holmes. No, it is not. We have the master port at 
Thousand Islands, which is Alexandria Bay, and that port 
director would be responsible for the Thousand Islands Bridge, 
Ogdensburg, which is the next bridge north, and then Massena, 
which is the next bridge after that, and then that portion of 
the border is under the Champlain port of entry, but Massena 
has a great deal of cross-border traffic. It is busy. It is not 
as busy as this port, here at Champlain, and it has a different 
type of traffic, because it is not between two major 
cosmopolitan cities--it's more local traffic going back and 
forth--but it is a very busy port of entry. It also is not 
supported well. In fact, it has a very poor facility and 
outdated structure for the size of the traffic that goes 
through there, and that exacerbates part of the flow problem at 
Massena.
    Mr. Souder. Do you know roughly, at Massena, how many 
people would go through?
    Ms. Holmes. I'd have to find that out, how many annually.
    Mr. Souder. If we can put it in the record, so as people 
look at our different hearing records, we can get kind of a 
perspective.
    Did you have----
    Mr. Dambrosio. Yes, I brought along statistical data, just 
in case you had questions like this. The port of Buffalo, in 
fiscal year 2000--and that's the last year for which we have 
final total figures--privately owned vehicles was nearly 8 
million for Buffalo. That would be Buffalo and Niagara Falls. 
For the entire Customs management sector, which is all of New 
York State, except for New York City, there was a total of 
nearly 11 million privately owned vehicles, so roughly 3 
million are from Alexandria Bay to Champlain; the remainder are 
at Buffalo/Niagara Falls.
    Mr. Souder. I wanted to--one of the questions that came up 
yesterday in our hearing was a question of Customs employees 
are hired out of the central offices rather than regionally. 
Have you looked into that further, or could you explain to me 
briefly--I know I've heard this before--but why that would be 
true, as opposed to regional hirings, and does that impact your 
ability? Do you look to hire in a region? Do you expect Customs 
inspectors then to move between different ports and not be 
located at a particular port for an extended period of time? 
What's the philosophy there?
    Mr. Dambrosio. Well, Chairman, let me start at the 
beginning of the process. It was about 2\1/2\ years ago that 
Customs headquarters, working with OPM, decided to take the 
route of quality recruitment. Prior to quality recruitment, we 
did advertise locally for positions, but with the quality 
recruitment route, which is an effort to streamline the hiring 
process, candidates are solicited nationally and they go onto a 
register and they have a lot of the background work done 
already, so that when a vacancy comes up in a particular part 
of the country, there's a ready list of people to be plugged 
in. And that system is supposed to work more smoothly than the 
previous system of you have a vacancy, you advertise, you hope 
you get some good candidates, etc. Once the people are on board 
from this quality recruitment effort, which is a national 
effort--it's not a local or regional effort--once inspectors, 
for example, are at a port of entry and they would like to 
transfer to a different port within my area of management 
control, they would indicate that to their supervisor, and if 
there is there's a vacancy at the port where they want to go 
to, or if they want to switch with somebody, a mutual swap, 
that certainly takes place.
    Mr. Souder. Without getting you into trouble with OPM, let 
me see if I can ask this question in a tactful way. Have you 
found--do you--well let me ask you this question: Do you 
believe, qualitatively, you're getting better employees under 
this system, in a factual way under this zone--not arguing a 
national policy right now--and second, can you get your 
vacancies filled more rapidly than you were able to before? 
Those are factual questions, not opinion questions.
    Mr. Dambrosio. Yes, Mr. Chairman, the speed with which 
people are coming on board, I have to say that right now, for 
example, we're reallocating, within Customs to the management 
sector that I have responsibility for, 47 positions. That's a 
reallocation from other parts of the Customs Service to the 
East Great Lakes CMC. We are not actually transferring people 
that are already in Customs. What's happening is that the 
Office of Field Operations has determined its usual attrition 
rate, and based on that attrition rate, is advancing the hiring 
and bringing additional people on board and allocating 
additional positions, 47 in number, to the East Great Lakes 
CMC. I have to tell you that we thought that process would take 
longer than it's taking, but the first person in the Champlain 
area to get an EOD date--an entry on duty date--I believe is 
this week, or in the very near future.
    Now, this decision to bring these people on board was just 
made within the past month, certainly since September 11th, so 
the speed with which we were able to plug into the quality 
recruitment lists worked very well. If we had to advertise 
locally and then get a list and then go through all of the 
background checks, it wouldn't have been nearly as quick. So 
it's this recent experience, that I can tell you it has worked 
very quickly.
    Mr. Souder. Do you think your retention will be as well if 
you're bringing in people from outside into an area, as opposed 
to somebody who was recruited from an area?
    Mr. Dambrosio. Well, the way the system works is that 
people do indicate a part of the country as their preference, 
so the people that have indicated this part of the country as 
their preference, even though they might today be living in San 
Diego, but they've always wanted to move here or they have 
relatives here or they've always wanted to get back to this 
part of the country, we find that when people do come here, 
they tend to stay. Our attrition rate from this area, from the 
East Great Lakes CMC is very low compared to other parts of the 
country.
    Mr. Souder. Thank you. Mr. McHugh.
    Mr. McHugh. Thank you, Mr. Chairman. The chairman in his 
comments talked about how we have to watch this border crossing 
issue from the broadest perspective, because if you fix one 
problem, it's like a balloon--you tend to squeeze it in one end 
and it comes out another. Both of you spoke about temporary 
assignments to handle the challenges, particularly coming after 
September 11th. Mr. Dambrosio, you talked about 100 officers 
temporarily coming to the northern border. Where do those 
officers come from, generally?
    Mr. Dambrosio. Congressman, those officers have come from 
other parts of the country. I have to tell you that none of 
them have come to the East Great Lakes CMC, so I couldn't tell 
you their origin, because they didn't come here.
    Mr. McHugh. They did not come here?
    Mr. Dambrosio. No, they didn't.
    Mr. McHugh. Well, then, how are you handling the 24/7, two 
officers, which did not exist before? How are you accommodating 
that? I assume that it's just through overtime and such; is 
that true?
    Mr. Dambrosio. Within the Customs management sector, 
additional ports of entry are Syracuse, Rochester and Albany. 
Because they are not as impacted as the land border is, we've 
been detailing people--one person from Rochester, one from 
Syracuse and two from Albany--since September 11th to land 
border locations. That's a total of four people from within the 
CMC. The rest has been taken up by a combination of resources, 
a lot of overtime. Our overtime has doubled in many locations. 
We have received great assistance from the National Guard; the 
New York State National Guard provided us with great 
assistance, especially immediately after September 11th, and we 
worked closely with our partners in the Immigration Service to 
try and cover shifts as best we can.
    Mr. McHugh. Ms. Holmes.
    Ms. Holmes. We've done two things. Immediately following 
September 11th, we had agents in Buffalo and Albany who we 
detailed to the border to work with other government agencies, 
and most recently, headquarters has detailed U.S. Border Patrol 
agents from the southwest to the border here to assist us and 
add security at the ports of entry.
    Mr. McHugh. Well, I guess my point, or I was hoping you 
would illustrate the point, that whatever we do to meet a 
challenge somewhere, if we're dealing in an ad hoc way, as you 
seem to say you are--which I understand, by the way. This is 
not a criticism of what you're doing. I think you've done an 
incredible job, particularly under the circumstances--but that 
places pressures in other areas, as well, and that obviously it 
all comes back to a nature of personnel. This is kind of a 
factual question. It may be an opinion question, as well. Given 
how we probably are going to demand these crossings be operated 
from now on, given the need to have two inspectors at these 
crossings, given the need to try to do things to accommodate 
these rather obscure road crossings that you talked about, 
Michael, how many personnel nationwide, on the crossings 
themselves, do you feel you're short right now to achieve a 
balance to do the job you need to do and to place a sustainable 
work burden on your personnel that right now, as I understand 
it, are operating at an incredible tempo--60, 70, 80 hours a 
week--which most people would not be able to do over any 
extended period. Have you had a chance to look at that at all? 
Talking about thousands, hundreds? How many?
    Mr. Dambrosio. As far as the entire Customs Service is 
concerned, Congressman, I really couldn't say. I could only 
tell you from the perspective of the East Great Lakes CMC.
    Mr. Souder. OK.
    Mr. Dambrosio. The 47 reallocated positions from other 
parts of the country was in response to my discussions with 
Customs headquarters to tell them that we needed to provide 
relief to inspectors here that they cannot work indefinitely 16 
hours a day, day after day. So we are getting 47 reallocated 
positions. In addition, we have requested additional National 
Guard support which would help alleviate the Customs staffing 
requirements, which would allow people to work an 8-hour day, 
perhaps, instead of a 16-hour day. So when the 47 reallocated 
positions are on board, and if we continue to have New York 
State National Guard support, we believe that we can handle the 
situation as it is now, assuming that the technology, which 
goes hand in hand with the people, is also available. For 
example, I did reference VACIS being installed here in 
Champlain. One high-technology system can equal numerous 
Customs inspectors. To devan one truck would take two or three 
inspectors perhaps all day, and that would use their resources 
an entire day. With VACIS, with the x-ray system, we would be 
able to do a truck every 5 minutes going through the x rays, to 
see if there's anything inside that truck that merits a 
devanning. If we can avoid the manual labor that comes with 
lack of knowledge by applying to high technology that gives us 
better knowledge so that we don't have to use the manual labor, 
then we can manage with the resources that we will have on 
board. So the two really do go hand in hand.
    Mr. McHugh. Well, I appreciate that. Mr. Chairman, I don't 
think it's reasonable to expect the National Guard of the State 
of New York, who are people who come from private employment, 
as you well know, to become part of our permanent border 
presence. I'm suggesting that we have a real personnel 
challenge here that has to be met where the responsibility 
lies, and that's with the Federal Government.
    If I'm asking something coming up here that you don't feel 
you can answer in a public forum, I understand, but right after 
September 11th, it was my understanding that the practice was 
inspect every vehicle, every trunk crossing, true?
    Mr. Dambrosio. Yes.
    Mr. McHugh. That has now lessened in frequency; is that 
true?
    Mr. Dambrosio. It has, Congressman, because a lot of our 
crossings--and believe it or not, even in the Buffalo area--a 
lot of the crossings are people that are seen every day and 
they actually cross many times a day. For example, at Massena, 
NY, where the POV count is actually higher than Champlain, 
they're at over a million POVs a year. A lot of those crossings 
are the same people crossing four and five times a day and 
they're local people. And immediately after September 11th, we 
said every car, every trunk, ID for everybody, but we had to 
step back and take a look, and say is this really reasonable? 
You know, the people that we see five times a day, the people 
that we know live in the area that have lived here all their 
life and we know are not a high risk. We brought some of that 
to the process so that not every car today is having its trunk 
opened or identification being provided.
    Mr. McHugh. That brings us to the personal or frequent-
traveler, frequent-flyer program that's been kind of up and 
down. Is that being resurrected, if you will, with the Canadian 
Government, to try to evolve a system that formalizes the 
frequent-traveler situation that you just talked about?
    Mr. Dambrosio. The Customs Service has no specific system 
of frequent travelers. There's a test system at Port Huron/Sarnia, called NEXUS. There is a Canadian system called 
CanPass, which allows for habitual crossers who have a card, 
who have had some background checks, to be able to cross more 
quickly. The Immigration and Naturalization Service has a 
system, which I'm sure Ms. Holmes can explain better than I 
can.
    Ms. Holmes. We have a system at the Peace Bridge called 
Autopass, and we've been using it for many years, and it allows 
people to apply, and we do background checks, and they are then 
able to move through the border, coming in our direction, much 
more quickly. We did suspend it after September 11th and we 
have not yet reopened it. It is a much more simple system than 
what they use in this Port Huron test called NEXUS, but it is 
something I think we're going to be moving toward. Also, the 
INS has a biometrics system called INSPASS that we use at a 
number of airports for frequent business passengers, both U.S. 
citizens and aliens, and it is biometrics, using the hand, and 
that works and we are able to continue to use that after 
September 11th, because it does identify the individual and the 
individual has had extensive background checks, so I think that 
is something that the agency is moving toward, is more expanded 
biometrics, as the techinology gets better, to continue to use 
that. It is more problematic at a land border port of entry 
because although the car, maybe the driver may be enrolled, all 
the passengers with the driver would not be, and whether the 
agency has decided to do that, I'd have to defer to our 
headquarters, but it is something that we are constantly 
looking at. I'd like to address the staffing issue, if I may.
    Mr. McHugh. Please.
    Ms. Holmes. We obviously rely and work with the Customs 
Service to staff ports of entry, and the National Guard has 
been of great help. Certainly, if the bill as proposed, we were 
to receive three times the number of staff that we have here, 
we would be thrilled. Personally I was thrilled last year when 
we received eight additional land border positions for the 
whole 400 miles. I mean that was a great increase for us, so 
any increases would be welcome, but we are right now canceling 
annual leave for our employees, they're working double shifts, 
they're working long days, they're working with very few days 
off. I think we are soon going to hit a point where they are 
tired and not well as a result of all of this work, and I don't 
know that we're going to get the relief soon enough to prevent 
concerns with their health. It is quite a lengthy process to 
bring people on board. We always anticipate attrition with the 
agency, and we have people in the queue ready to clear, but 
whether we'll get it--we haven't yet received any additional 
positions, unlike the Customs Service, so that I haven't been 
able to bring any additional staff on yet. And it will take 
time. Security clearances take time, training then takes time, 
and to make them contributing members of the inspectional staff 
here will take a while, and so I don't see any immediate relief 
to the staffing crunches that we're experiencing right now here 
at the land border post.
    Mr. McHugh. I appreciate that you look somewhat envious 
toward Mr. Dambrosio in that regard. I'm sure he's looking 
enviously toward you in terms of a recent funding bill that not 
just tripled an authorization--everybody was taken care of 
there--but unfortunately, in my view, didn't provide the funds 
for Customs, and that's something we've got to work on.
    Last question, Mr. Chairman; I appreciate your patience. 
The generic hearing question: If you had two wishes that could 
be fulfilled from the U.S. Congress, what would they be? What 
could we do for you?
    Ms. Holmes. Well, two wishes would always be additional 
staff--I think we definitely need new staff--and we need some 
facilities, at least here in the Buffalo District for the INS. 
Some of their facilities, if you've seen them, have long since 
passed their prime. Some of them were built in the 1930's and 
1940's, and they just don't meet the technological needs that 
we have now, and I think we could do a better job with better 
resources like that. I would have many more, but those would be 
my top two.
    Mr. McHugh. That's why I said two. I understand. Mike.
    Mr. Dambrosio. I would have to echo that, that we have the 
resources that will provide the quick transit of the volume at 
the northern border that continues to grow. Right now there's 
been a temporary reduction because of the events of September 
11th, but in the long term, the traffic volume at this northern 
border is going to increase. And it has doubled and doubled 
again in the recent decade, and the resources that are 
available at the northern border essentially are static, and 
they date back to years ago. The infrastructure is old, many of 
these buildings date from the 1930's. Port of Champlain will be 
rebuilt within the next 3 years. That's the kind of advancement 
that I'd like to see at the northern border, that the major 
crossings have the kinds of facilities that will expedite the 
flow of trade and people, that the staffing be sufficient, and 
that the technology be there and technology advance as we learn 
more about what will help move goods and people more quickly.
    Mr. McHugh. Mr. Chairman, I apologize, but I did want to 
address--thank you both for that--one final question, which you 
may not be prepared to answer right now, but if you could, if 
you're not--if you could provide it for the record. My office 
has received a number of communications from individuals who 
are concerned about the Canadian Pacific Railway that currently 
maintains 11 people at the Rouses Point rail crossing. There's 
talk about an internal restructuring that may remove some, 
perhaps all, of those 11 people. I'm concerned about what role 
those folks play, if any, in the current partnership that both 
of your agencies have with those firms that ship across this 
border, and what their absence may mean to the processing 
times, if they're not there to facilitate the job, that you 
have to do in inspection of railroad cars, which probably is 
not done as thoroughly as all of us would like right now, out 
of certain necessity, what would that mean without those 11 
people? I don't know if either of your agencies have a formal 
view or have any familiarity with that, but if you could look 
at that, I'd appreciate it. Thank you. Thank you, Mr. Chairman.
    Mr. Souder. I have two additional questions I wanted to 
followup. On the Autopass at Peace Bridge and the INPASS you 
referred to, particularly the Autopass or the NEXUS, how do 
they handle the passengers in the cars?
    Ms. Holmes. Well, the people receive a decal that goes on 
their car and they are allowed to go to a dedicated line. 
However, we still do have an officer who works in the booth 
just to be sure that there are no additional passengers, but it 
does make for a quicker inspection, because people have been 
precleared and you know that.
    Mr. Souder. So if somebody has been precleared, they can't 
have somebody else in the car and still use the----
    Ms. Holmes. Correct. Either that, or it negates the whole 
point. No, it's only for the people who have been cleared.
    Mr. Souder. That's fine. And if you get preclearance, can 
you take your kids with you?
    Ms. Holmes. We would do a----
    Mr. Souder. The whole family precleared?
    Ms. Holmes. Exactly.
    Mr. Souder. I wanted to followup by Mr. Dambrosio, in your 
statement you said this new VACIS system is coming to 
Champlain. Was that a pre-September-11th commitment to do that?
    Mr. Dambrosio. Yes, Mr. Chairman.
    Mr. Souder. And what's the rough cost of that?
    Mr. Dambrosio. I recall discussions with my headquarters 
people that one VACIS, the type that we're getting, it's called 
a portable VACIS. It's called portable, but once it's set down, 
it really is not portable. It's roughly $1 million.
    Mr. Souder. Have you heard any preliminary--as to how the 
additional expenditures on the northern border might affect 
this zone? Do you put requests up and have any process started 
inside Customs or INS at this point?
    Ms. Holmes. Concerning?
    Mr. Souder. On the northern border, additional 
expenditures. Like do you already have a wish list in?
    Ms. Holmes. We always have a wish list in.
    Mr. Souder. And have you--has anybody asked you for 
opinions to how that might change after September 11th, or was 
it a wish list that was sent in at the beginning of the budget 
cycle?
    Ms. Holmes. Well, certainly resourcewise, the necessity to 
staff ports with two people all the time changed after 
September 11th, and so we revised it then. Facility wish list 
has been in for years. We are constantly pointing out 
deficiencies in the ports of entry. Although some of them, 
Massena included, that was pre-September 11th.
    Mr. Souder. In your case, for limited amount of dollars, do 
you put more of a premium on being able to have two staffers, 
or for additional structural facilities?
    Ms. Holmes. People. Absolutely people.
    Mr. Souder. In the--you seem to indicate a little bit 
different in yours, Mr. Dambrosio?
    Mr. Dambrosio. I guess it's because the Customs Service is 
responsible for the commercial processing, and it's the 
technology that's needed for that endeavor that could help to 
eliminate a need for lots of additional people. The VACIS that 
I spoke about could help us to identify what is inside trucks 
or trains far better than people could, because we could never 
have enough people here at the northern border to look inside 
those containers the way that x rays can. And Congressman 
McHugh mentioned Canadian Pacific at Rouses Point. At the rail 
crossings at the northern border, there is a real deficiency of 
any kind of infrastructure. There are no facilities to examine 
cargo, there are no VACIS units, and we have had--when you 
asked about what kind of lists have we had into headquarters, 
Customs headquarters has had lists of what is needed at rail 
crossings, specifically, for a long time, and is continually 
working with the rail companies to try and get examination 
facilities, and is trying to get funding in order to put VACIS 
units at the rail crossings. When it comes to the smaller ports 
of entry, I would have to echo what Ms. Holmes said, that if 
we're going to keep stations and ports open 24 hours a day 
staffed with two inspectors, in order to reduce the overtime 
expenditures that are occurring now, you of course would need 
more staffing resources.
    Mr. Souder. That's a problem, by the way, on the southern 
border, too, with the rail. I think you said that there has 
been a temporary reduction in traffic. Has this been--Let me 
ask the question this way: I think both of you said, before the 
hearing started and in your testimony, that the delays are 
relatively short at this point along your sector. If traffic 
were normal and you continued at level one, what would the 
delays be?
    Ms. Holmes. Well, we would staff so that the delays would 
be minimal. We would----
    Mr. Souder. But you don't--where would you--in other 
words----
    Ms. Holmes. They would work more time, they would have less 
time off, there would probably be more leave canceled. We are 
trying to give people days off, but our goal, in working with 
Customs, is of course to keep the waits as minimal as possible, 
so----
    Mr. Souder. Let me ask the question a different way. If you 
don't do those, in other words, how much would you say it's 
reduced, the traffic is reduced? 10 percent, 30 percent? And 
obviously the first weeks were probably a greater drop than----
    Mr. Dambrosio. Well, at Champlain alone, and I can't say 
just since September 11th, but just because of the differential 
in the Canadian dollar versus the U.S. dollar in recent years, 
the amount of traffic I would say has reduced significantly.
    Ms. Holmes. Well, in my testimony I stated it's gone up, 
but since September 11th, at least in the Buffalo corridor, my 
staff tells me it's down about 30, 40 percent.
    Mr. Souder. Well, the reason I ask the question that way is 
that if you're already--and my understanding from Mr. Ziglar 
was INS is getting fairly tapped out in ability to use 
overtime, which is a whole other question we have, and some 
others, if you had that traffic go up 30 to 40 percent and 
you're already tapped out on your overtime and you've already 
canceled leave, unless we get more personnel in at level one--
either we're to back off of level one or get personnel 
relatively rapidly, because we're hitting a wall.
    Ms. Holmes. The waits will get longer.
    Mr. Souder. And we can't both try to say we want the 
economy to pick up and stay at level one, and yet at the same 
time, what we've seen, the terrorists historically have hit us 
somewhere in the world about every 6 months, because they know 
we tend to back off, and also, if under this pressure any other 
major incidents happen where there's a border--basically you 
have to come in by air, water or land unless they're already in 
the United States, and it won't take but one more major border 
incident where somebody has crossed to see a desire to never go 
down from level one. In fact, to not have unmanned crossings at 
all, that the pressure is going to be huge on the government to 
try to address the question, and that's part of what we're 
trying to do in the assessment.
    I have one other technical question that I wanted to ask. 
We have been discussing a lot about language questions, that my 
understanding from our hearing 2 weeks ago with the U.S. 
Marshals, Customs, and INS in Washington in personnel 
questions, that the INS, for example, has heavily focused on 
having Spanish as a second language. Yesterday, when I asked 
the knowledge about French, and let alone Farsi, that while you 
can get up to a 5-percent bonus, if I understand this--3 to 5 
percent annual increase in salary for learning a second 
language, few people are taking advantage of that, partly 
because they have to pass a State Department-level test. One of 
my--and, for example, a couple of the people informally we 
talked to after the hearing actually were French, that has 
their first language, and couldn't pass the test. Which leads 
to the question, could we even pass English tests if we were 
doing that? In other words, what we don't need here is somebody 
who can teach French or teach Farsi. The question is that in 
our system, particularly given the risk that we are currently 
looking at in the United States, it is almost incomprehensible 
to some of us that we don't have people at the borders who can 
talk--or have access, even--who can talk or read literature in 
the language that we're basically concerned about from the 
terrorist perspective right now. Do you know, in Customs and 
INS, whether there has been any discussion about making a more 
functional-type test with a different kind of bonus system 
which would say you don't have to be able to teach this 
language, you don't even have to be completely literate, but 
you have to understand certain things, and maybe know what 
``anthrax'' looks like in Arabic? And Congressman Wolfe, who 
heads the Appropriations Committee is looking in the report to 
tell us how we might do something in the language question and 
look for a creative way to do it, but we're running into very 
complicated walls and traditions with this, and I'm wondering 
how the tradition started, and whether you have any grassroots 
suggestions in your zone, because it's not a particularly 
comforting prospect to this elected official or the average 
taxpayer to realize our language vulnerabilities at the 
borders.
    Ms. Holmes. Well, if I could address that. We do something 
a little different from the Customs Service, and we hire 
through the OPM register, but we also use the VRA and we also 
use the outstanding scholar. And in this district, we make an 
effort to interview every applicant, and one of the things we 
look for is language abilities, and place people appropriately 
at our ports of entry so that if we have an Arabic speaker, and 
we do, we put that person in Montreal, because in Montreal 
there's quite a large Arabic population.
    We have quite a few French speakers here in Champlain. We 
certainly, at our academy, teach Spanish, because a number of 
our predominant ports are where they deal with many Spanish-
speaking people. But as an agency, we certainly look to get 
people who have language ability to make a well rounded 
inspector. But as far as recruitment nationally, excuse me, 
national policies on that, I am unaware of the OMM process.
    Mr. Souder. At Buffalo, Niagara Falls, and Massena, do you 
have anybody who can speak Farsi?
    Ms. Holmes. Not that I am aware of, no. I am pleased to 
have an Arabic speaker.
    Mr. Souder. You have an Arabic?
    Ms. Holmes. We have an Arabic speaker in Montreal. In fact, 
we moved her to Buffalo to work with the FBI, because they 
didn't have one, either.
    Mr. Souder. Do you have a resource of people that you can 
call?
    Ms. Holmes. Yes. Well, we certainly have translation 
services, and we use them all the time, yes.
    Mr. Souder. Thank you. Mr. Dambrosio.
    Mr. Dambrosio. Mr. Chairman, in the Customs Service, I'm 
not aware of any discussions along the line that you've asked 
the question, but I can look into that, if you'd like.
    Mr. Souder. We'll pursue it in Washington, as well. Mr. 
McHugh, do you have any more questions?
    Mr. McHugh. No.
    Mr. Souder. Thank you very much. If the second panel could 
now come forward. Before you sit down, Mr. Douglas, Mr. Duford 
and Mr. Keefe, if you will stay standing and we'll do the oath.
    [Witnesses sworn.]
    Mr. Souder. Let the record show that each of the witnesses 
have answered in the affirmative. First we'll start with Mr. 
Douglas from the Plattsburgh-North Country Chamber of Commerce. 
We're appreciative that you could join us today.

 STATEMENT OF GARRY F. DOUGLAS, PRESIDENT AND CEO, PLATTSBURGH-
               NORTH COUNTRY CHAMBER OF COMMERCE

    Mr. Douglas. Well, thank you, and your colleague will 
confirm that it's a dangerous thing to put me in front of you 
and ask me to talk about the border, so it's a subject that I 
and the business community in this region feel passionately 
about and have been working actively on long before September 
11th, which, of course, has brought fresh attention from new 
quarters to a lot of the things we were already talking about.
    First of all, let me welcome you, Mr. Chairman, to 
Montreal's U.S. suburb. That has come to be the way that we 
refer to ourselves, because in a short, bumper-sticker sort of 
way, it frames the reality of what's happening in this area and 
other areas approximate to the border, like Plattsburgh. We are 
becoming bi-national economic regions. There are a series of 
them across the U.S.-Canadian frontier. It is no longer about 
trade. It is about common economic regions. Trade brings about 
images of boxes moving back and forth, and I would suggest it's 
something more related to the U.S. relationship with Bulgaria 
or Finland than it is with Canada at this point in time. This 
is a different sort of relationship. It's far more integrated, 
it's far more personal, it's far more important. It's actually 
far more precious--at least it certainly should be--to all the 
United States and to all the American people. If you'll indulge 
me, I'd like to, first of all, talk in terms of a couple of 
frameworks within which I think we need to think about the 
border in places like Champlain, and then I would like to hit 
on several specific requests, recommendations, issues that our 
coalition has some definite opinions on.
    First of all, economics. It is important. It's vastly 
important to all Americans. Of our 50 States 35 now have Canada 
as their main export mark. If you talk about economic security, 
Canada is our No. 1 source of economic security, and that 
certainly needs to be as much a part of thinking about security 
as other elements of security, which certainly also need to be 
thought about and addressed.
    I won't bore you with the numbers that we all hear all the 
time, the $1.8 billion a day in trade, the at least 1.8 million 
U.S. jobs directly dependent on simply selling products to 
Canada; never mind all of the other ripple effects of that. The 
stakes are absolutely huge. But in our area--and we've 
submitted this for the record--our chamber does a study every 2 
years to document--we're the only place in the country that 
does this--to try to put numbers, and then track them, on the 
impact of a neighboring country, in this case Canada, on a 
border jurisdiction like ours, in this case Clinton County, NY, 
which is the area around Plattsburgh. 80,000 people. To put the 
numbers in some context, we've established that for calendar 
year 1994, that annual economic impact amounted to $784 million 
U.S. dollars, per year. Extraordinary.
    But then we further documented that in just 4 years' time, 
that doubled to $1.4 billion. That tells us the stakes are 
huge. It also tells us they're growing exponentially. We now 
estimate that 14 percent of the work force in Clinton County 
out of the 80,000 population works directly for a Canadian 
employer. Companies like Bombardier in Quebec or Champlain 
Plastics, and the more than 100 Canadian employees we have 
working here who have transcended those boundaries and working 
both sides, they're about far more than the boxes in trucks 
moving back and forth, which more and more now are a symptom or 
a sign of what's happening, rather than the be-all and end-all 
of what's happening.
    I'm fond of pointing to the Canadian border as really 
America's No. 1 economic asset, and when you think about it in 
those terms and realize that is indeed a fact, frankly it 
becomes disgraceful to also realize that it's America's most 
neglected economic asset, its most taken for granted. And 
finally, we're coming to grips with that.
    There have been many determined, but often lonely, voices 
like our good Congressman here in the past, but their 
frustration--and it's natural--is that most of their colleagues 
are from places like Nebraska, and both to engage their 
attention, but then also to have them understand the kinds of 
relationships that areas like ours have with this neighboring 
country is difficult, but hopefully we have an opportunity now 
to get through some of that lack of awareness or 
misunderstanding and to protect our economic security and make 
sure that these border crossings work in excellent ways--
excellent in all regards: Excellent in terms of protecting 
national security, excellent in terms of enforcing the laws 
that they have to enforce, but excellent also in terms of 
facilitating economic activity, because it's vital that all 
three of those pillars be upheld.
    The other framework that I really have to touch on on 
behalf of our Canadian partners--and they are our partners; our 
friends; we work with them every day. They aren't some other 
country that we visit once in a while on a mission and do 
business with. It's more than that. And hope that we all agree 
that Canada and Canadians that aren't the enemy. And I've seen 
the degree to which even some hysteria is attempting to be 
created that somehow Canada is some great center of bomb-
throwing madmen and that Canadians somehow are our enemy 
because they don't care about our security or whatnot. And 
there are things to be addressed, but we need to be very 
careful about doing it within a framework of, first of all, 
acknowledging and understanding our very special relationship 
with Canada.
    In NORAD and in NATO, they're our allies. They're at our 
side right now in the campaign in Afghanistan. We know about 
the economic links that I've mentioned. They're at our sides, 
our stakes are the same in that way.
    But the relationship is more than that. We're neighbors, 
we're friends, we're family. And as with any family, the attack 
on America has been regarded as an attack on Canadians as well, 
and I can tell you it's felt very deeply there. Witness the 
100,000 grief-stricken Canadians who gathered on Parliament 
Hill in Ottawa. It wasn't reported much in the United States, 
which is too bad. It was an extraordinary event. Or the 
volunteers, just one moving example of which I'll cite: The 
little rural community just across this imaginary line is 
called Lacolle, Quebec. Very small community. Their 
municipality brought $1,000 donation to our Chamber to pass on 
to the American Red Cross just last week. This shows they 
aren't the enemy, they're our friends, and we need to treat 
them as such. This relationship is truly special. It is unique 
in the world. It is of enormous value to all Americans.
    As we react to current security concerns, it is surely and 
clearly vital that we do nothing to undermine or diminish this 
bond and connection with our Canadian friends. The economic 
security stakes are huge for our country and its people. But 
the subtler stakes inherent in preserving the most special 
relationship in the world between two nations and two peoples 
are even greater. It must be appropriately cherished and fully 
secured as we go forward.
    We do not need a more restrictive relationship with Canada 
any more than we need a, ``tighter border,'' if tighter means 
the raising of walls. What we do desperately need is a 
commitment by both our nations to take our past cooperation and 
partnership to new levels and into new areas of endeavor, and 
we need border facilities and operations which are modern, 
efficient and effective, in balanced support of all three key 
objectives: Security, enforcement, and trade and travel 
facilitation. In short, we need a smarter border and a smarter 
cross-border partnership.
    Let me touch on a few priorities if I may, and 
recommendations. I speak on behalf of the Plattsburgh-North 
Country Chamber of Commerce, which is a 2,100-member regional 
business organization servicing the northeast region of the 
State of New York. I also speak for the Quebec-New York 
Corridor Coalition, which unites more than 1,000 chambers of 
commerces, businesses, economic development agencies, public 
and private interests in both Quebec and the State of New York 
and for our group, the committee of 100 Plus for a Port of 
Excellence.
    First of all, we need the right tools for our people, and 
let me agree and concur and join in aplauding the INS and 
Customs folks here at Champlain. I know across the country, but 
I know personally of the folks here at Champlain, who are doing 
an extraordinary job under great pressure with a great weight 
of responsibility on their shoulders, without leave, putting in 
extraordinary hours, keeping things working here. It is because 
of that extraordinary effort--which we cannot expect them to 
engage in going forward forever--but it's because of that we 
have not had significant additional delays here at Champlain, 
because they understand that multiplicity of responsibilities 
and that they have to make things work not just in one 
dimension, but in all dimensions here, and they're doing that. 
And I can't thank them enough, but we need to give them the 
proper tools to make sure that we continue to meet all three of 
those responsibilities, and one of those is certainly a proper 
facility.
    This Champlain facility I think is an embarrassment, it's a 
disgrace. I think the U.S. Government needs to be embarrassed 
that it went for 40 years with this kind of inadequate facility 
with the responsibilities that it then expected its people to 
carry out here. But we have an opportunity to fix that. With 
Congressman McHugh's assistance, we have a project in the first 
stage of the pipeline. There's a copy in the testimony 
submitted to you of the site plan prepared by GSA of the 
conceptual design for what we call a Port of Excellence at 
Champlain. We have some initial funding for design work, and 
some funding has also been provided to do a few initial things 
here to make the situation less awful--not to fix it, but to 
make the situation less awful, until we can get to this, which 
is the real solution.
    We want a facility here--and I suggest really we ought to 
be talking about a Border of Excellence. This is what we should 
be seeking at all facilities, but I'll address Champlain. We 
want a facility here that is excellent in all respects, that is 
so modern, flexible, expansive, efficient, effective, that it 
is in fact the model of a facility in our U.S.-Canadian border, 
that it will actually draw and encourage commerce and travel, 
not discourage it.
    Some of the other things that have been talked about, 
applying technologies to moving people, I'm going to get to 
that in just a second, but facilities have to come first, 
because it doesn't make a difference if you've got a NEXUS pass 
and you're 2 miles back in the line and you can't get through 
to that special booth to get through. We need to get on to the 
job, because nothing----
    Mr. Souder. We didn't put the clock on individuals, but if 
you could kind of just summarize your other points, we'll 
insert your full statement in the record.
    Mr. Douglas. I will. We need to accelerate this particular 
project, so hopefully not breaking ground 2004, but hopefully 
as soon as 2003. Border staffing: we thank the Congress last 
week for the tripling of U.S. Border personnel on the northern 
border, including critically needed staffing for U.S. Customs 
so that new security procedures can be carried out while still 
facilitating and moving trade and traffic. We need to make sure 
that we get those folks out in the field and get them properly 
allocated. I'll state a number; my friends at U.S. Customs 
didn't. In addition to those that are already in the pipeline, 
we need at least 50 additional U.S. Customs inspectors here at 
Champlain, and that's what we hope our folks will be working 
for.
    Third, a shared security perimeter. We need to redouble the 
United States and the Canadian Governments' efforts to work 
toward that goal, so that somewhere down the road, hopefully 
not in the too-distant future, we can put more. I think there's 
a window there. I think the Canadian people are ready for it. 
They weren't 6 months ago; I think they may be now.
    Pre-clearance technologies: NEXUS and other types of pre-
clearance procedures that can take some of the pressure away 
from the actual borders. Senator Clinton has suggested the 
creation of a position at the new Office of Homeland Security 
devoted to coordination of northern border activities. We 
cautiously endorse that, with the caveat that it be very well 
defined if that does go forward. However, I think what she was 
touching on is a problem, which is the multiplicity of Federal 
and State agencies dealing with places like Champlain, and the 
often lack of coordination and agreement and common approaches 
and strategies among those. If not done through such a position 
as this, I hope the committee will consider other ways that we 
can bring greater coordination to the number of agencies that 
have responsibility.
    And then finally, while we work to do the right things, we 
also have to make sure that the wrong things don't get done, 
even if for well-meaning reasons. We have to make sure that the 
types of exit controls don't rear their ugly head again. We 
don't need to go down those kinds of roads. There are kinder, 
gentler ways to address the kinds of needs that are seen in 
going after those kinds of things. I know there have been 
proposals out there, and there will be, in the well-meaning 
interests of national security, to do things that actually 
would be wrong and injurious things to do here in the northern 
border, and we need to be vigilant about that.
    With that, I thank you for the time. I told you it was 
dangerous to ask me to talk about the border.
    Mr. Souder. Well, thank you. And if you could also submit 
for the record, depending what you've already sent to our 
office, if the different groups that you were representing have 
any summary reports, this is really good data to get into our 
hearing book as we
look at other borders.
    Mr. Douglas. I will.
    [Note.--The attachments to Mr. Douglas' statement may be 
found in subcommittee files.]
    [The prepared statement of Mr. Douglas follows:]
    [GRAPHIC] [TIFF OMITTED] 81865.016
    
    [GRAPHIC] [TIFF OMITTED] 81865.017
    
    [GRAPHIC] [TIFF OMITTED] 81865.018
    
    [GRAPHIC] [TIFF OMITTED] 81865.019
    
    [GRAPHIC] [TIFF OMITTED] 81865.020
    
    Mr. Souder. Sounds like you're a little more developed in 
some of your reports. Mr. Keefe.

STATEMENT OF THOMAS KEEFE, PRESIDENT, ST. LAWRENCE CHAPTER 138, 
               NATIONAL TREASURY EMPLOYEES UNION

    Mr. Keefe. Thank you. Chairman Souder, Representative 
McHugh, thank you for the opportunity to provide testimony at 
the world class port of Champlain, NY. I am proud to be 1 of 
over 13,000 Customs Service employees who serves as the first 
line of defense against terrorism and the influx of drugs and 
contraband into the United States.
    I'm a second-generation Customs inspector. I followed in 
the footsteps of my father, who was an inspector until his 
death in 1982. In light of the recent tragedies at the Pentagon 
and the World Trade Center, Customs personnel in New York and 
across the country have been called upon to implement 
heightened security at our land, sea and airports, and may I 
say I know of no greater way to consecrate the tragedy and the 
lives that were lost in New York than to do our job as we've 
done prior to September 11th, and it is an honor from the 
people that I represent to be able to do so.
    My chapter's jurisdiction covers over 17 ports of entry 
from Champlain to Alexandria Bay to Albany, NY. We further have 
the responsibility to cover Lake Champlain ports of the Salmon 
and St. Lawrence River and two of the Great Lakes for boat 
reporting. The boat reporting is done telephonically, as we do 
not have resources to cover these waterways. We also cover 
freight trains. These trains are both in and outbound. Again, 
with limited resources, these conveyances are rarely, if ever, 
examined. To further complicate matters, part of the chapter, 
at Fort Covington, NY, borders an Indian reservation, and while 
it is unpatrolled by Federal agencies, it is not unknown to 
those who are professional smugglers looking to avoid 
detection. The task is daunting, to say the least.
    Customs personnel are working under a heightened level one 
border security as a result of September 11th, and a fact that 
must not be overlooked is that business and all other Federal 
inspection agencies has not ceased. We still have an active 
border here, we still have our regular jobs to do. Many 
inspectors are working 60 to 70 hours a week with no days off. 
Unfortunately there has been a relatively small increase in 
personnel nationwide, despite the dramatic increase in trade 
from NAFTA, the increased threat of terrorism, drug smuggling, 
and the opening of new ports and land borders across the 
country each year.
    In fact, the port of Champlain processes over 1 million 
private automobiles and approximately half a million commercial 
trucks and a daily passenger train. The port of Champlain has 
the responsibility for providing commercial support for the 
ports of Albany, Massena, Ogdensburg, and Alexandria Bay.
    My career spans 19 years in law enforcement. It includes 
two Federal agencies. When I began my Federal career with the 
Immigration Service in 1984, there were over 75 full-time 
Customs inspectors at Champlain. When I transferred to the 
Customs Service in 1989, the number was about 65. As I sit here 
today, in Champlain there are 43 full-time Customs inspectors. 
Customs recently conducted an internal review and commissioned 
the company of Price Waterhouse, at the tune of over $1 
million, to create what was called a resource allocation model 
[RAM], and it showed nationwide that Customs needs over 14,776 
new hires just to fill its basic mission.
    In fact, according to the resource allocation model, the 
port of Champlain would need over 79 new inspectors, 2 canine 
enforcement officers, 4 import specialists, and 12 special 
agents alone. The administration and the Congress must show the 
men and women of the Customs Service they respect and support 
the difficult and dangerous work these officers do, 365 days a 
year, by providing an increase in funding to the Customs 
Service.
    This country needs to make some decisions about the 
northern border. As a wise man once told me in reference to the 
northern border, he said, ``I have been to many castles in 
Europe, and none have only three walls.'' Nothing could be 
truer about the northern border. The port of Montreal receives 
over a half million containerized shipments a year, and many of 
these are placed on trucks and rail cars destined to this port. 
We need an increase in not only staffing, but technology, and 
we need the right technology. We do not need the technology 
that is simply the lowest bid and does not perform the job for 
us.
    Deploying any new hires along the area ports of the 
northern border would be a good start, especially since 
international terrorism has forever changed the landscape of 
this Nation.
    Another important issue that needs to be addressed is law 
enforcement status for Customs inspectors and canine 
enforcement officers, and also our brothers and sisters in the 
Immigration Service. The U.S. Customs Service inspectors and 
canine officers continue to be the Nation's first line of 
defense against terrorism and smuggling of illegal drugs and 
contraband across our borders. Customs Service inspectors have 
the authority to apprehend and detain those engaged in drug 
smuggling and violations of other civil and criminal laws, and 
for example, it was a Customs inspector who stopped the 
terrorist attack planned for New Years Day 2000 by identifying 
and capturing an individual at Port Angeles, WA.
    Canine enforcement officers and Customs inspectors carry 
weapons, we have to qualify three times a year, yet we do not 
have law enforcement status. We are being denied the benefits 
given to our colleagues who they have been working beside to 
keep our country safe. Customs employees face real dangers on a 
daily basis, and granting us law enforcement status would be an 
appropriate and long-overdue step in recognizing the tremendous 
contribution Customs personnel make to protecting our borders 
from terrorism and drugs.
    I'm extremely proud that Congressman McHugh has cosponsored 
H.R. 1841, which would give us this important status, and I 
would encourage the subcommittee to consider this very 
important legislation.
    In closing, thank you for the opportunity to submit 
testimony on behalf of all my colleagues in the Customs 
Service, and especially the employees that I have the honor and 
privilege to represent in Chapter 138, and I'd be glad to 
answer any questions you have. Thank you.
    [The prepared statement of Mr. Keefe follows:]
    [GRAPHIC] [TIFF OMITTED] 81865.021
    
    [GRAPHIC] [TIFF OMITTED] 81865.022
    
    [GRAPHIC] [TIFF OMITTED] 81865.023
    
    [GRAPHIC] [TIFF OMITTED] 81865.024
    
    [GRAPHIC] [TIFF OMITTED] 81865.025
    
    [GRAPHIC] [TIFF OMITTED] 81865.026
    
    [GRAPHIC] [TIFF OMITTED] 81865.027
    
    Mr. Souder. Thank you. Mr. Duford.

    STATEMENT OF CARL DUFORD, PRESIDENT, CHAMPLAIN CHAPTER, 
 AMERICAN FEDERATION OF GOVERNMENT EMPLOYEES, IMMIGRATION AND 
                 NATURALIZATION SERVICE COUNCIL

    Mr. Duford. Mr. Chairman, Senator McHugh, I would like to 
take this opportunity to thank the members of the committee for 
traveling all the way to Champlain to listen to our views and 
see what we need for northern border security. I would also 
like to thank you for allowing me to present my views. I've 
been an inspector with the Service for approximately 13 years, 
and involved with Local 2580 for 10 years. Only the last 3 I've 
been involved as an officer. Currently I'm the vice president 
of our local union. Prior to that, I spent 23 years in the Air 
Force as a Security Police officer.
    Inspections in general has a problem retaining inspectors, 
and the Champlain port of enty is no exception. It is a 
constant struggle to keep inspectors. Many newly hired officers 
leave Inspections for other Federal law enforcement agencies 
when they realize promotion potential is poor for inspectors. 
INS is treated as an entry-level position, used for entry into 
``real'' law enforcement occupations. Others leave the service 
altogether. For example, at this port we recently have had one 
inspector leave for better benefits to Customs. That happened 
just this week. One will be leaving to go to Secret Service, 
and we had a 20-year veteran that recently resigned and went to 
work for construction because of the lack of pay and benefits 
and retirement package. There was just no promotion potential 
for him, either. We have two more officers--we have one that's 
leaving INS to go into the New York State Police, and we have 
another one that's going into Secret Service. The Service has 
spent thousands of dollars on each officer to provide a 16 or 
18-week training course at the Federal Law Enforcement Training 
Center in Georgia. It is a terrible waste of INS dollars to 
bring these people on, only to have them go somewhere else. But 
it does provide a ready pool of pretrained applicants for other 
agencies.
    Treating Immigration inspectors as clerks, not law 
enforcement officers, with no promotion potential, does not 
serve the interest of individuals, the service, or the 
government. We work side by side with U.S. Customs inspectors 
doing the same type of work, yet their agency has provided 
their officers with a much better pay and retirement. If two 
officers, one Immigration, one in Customs, start on the same 
day, working side by side until retirement, the Customs officer 
will have earned more money, had more time off, and will 
receive better pension, thousands of dollars higher than that 
of an Immigration inspector.
    The INS has great employees who want to step up and do 
their part to protect this great land. Three times in less than 
2 years we have been put on heightened alert. Each time, 
inspectors have risen to this challenge, working double shifts, 
giving up leave, standing out in the brutal North Country 
winters conducting inspections, such as we did during Y2K just 
a few years ago. Most of the terrorists apprehended were 
apprehended on the northern border.
    In the year 2000, the Champlain, NY, port of entry 
initiated 248 criminal prosecutions. The U.S. Attorney pursued 
prosecution in 139 cases. The cases were for document fraud, 
paid alien smuggling, and reentry after deportation. We daily 
deal with aggravated felons, many of whom are wanted. These 
numbers do not include violators turned over to local law 
enforcement or State officials. I think it should be brought to 
the committee's attention that INS officers arrest more 
individuals than any other Federal law enforcement agency 
combined.
    The time is long overdue for INS inspectors to be brought 
up to the same GS level as other officer positions within INS. 
We should receive law enforcement retirement in our positions. 
The Service and Congress must change the emphasis placed on 
appeasing the airlines and business interests and concentrate 
more on enforcing the immigration laws designed to protect the 
United States. As recently as August this year, the Buffalo 
District proposed disarming our detention officers traveling 
with prisoners because the airlines did not like the officers 
carrying their weapons onboard the aircraft. Could you have 
imagined how ironic it would have been to have two unarmed 
Federal officers with a prisoner on one of the aircraft that 
crashed on September 11th because the airlines were 
uncomfortable with armed personnel onboard?
    All Federal law enforcement officials bury their head in 
the sand on the issue of control of local waterways. Government 
officials since before the French and Indian War have 
recognized Lake Champlain as a primary invasion route into the 
United States. Yet the agencies charged with control of Lake 
Champlain refuse to accept this responsibility for the 
protection of the homeland. The I-68 program has only 
facilitated the complete disarray on the lake. Government 
officials are quick to forget the last time the United States 
was invaded as an act of war was September 11, 1814, via Lake 
Champlain at the Battle of Plattsburgh. Washington, DC, and 
Baltimore, MD, were also attacked on that same day. This 
country should learn from all its lessons taught on September 
11th, no matter what the year.
    Inspectors in the Buffalo district have been ordered by the 
service to inspect boats that are hundreds of miles away up in 
the St. Lawrence River via television cameras. The inspector 
cannot see the boat nor who or what is in the boat, nor can it 
tell if there's any additional passengers on that boat, because 
the individual comes before a camera, which is not even located 
anywhere near where the boat comes in. Quite often, the picture 
is fuzzy, we can't make out who the person is. Sometimes we 
can't even get a picture. Sometimes we can't get the sound. But 
during the current crisis, ineffective remote inspections 
continue. It's time to regain control of our waterways.
    The Service must rethink a number of policies if we are to 
be effective. We must have effective control of visitors within 
the United States. The student program is out of control. The 
visa waiver program needs modification. The work permits for 
trade, NAFTA, and L-1s, must be controlled. An immigrant to 
Canada only has to live in Canada 3 years to naturalize. Then 
they can obtain permission to live in and work in the United 
States easily by using these same programs. The computer 
systems used by the Service are arcane data bases which do not 
effectively work. I will be supplying a written statement from 
our local president, which addresses some of these same 
subjects which I don't want to get into.
    In closing, I would like to say that our inspectors 
understand that most people we deal with are honest tourists 
and business people. We appreciate the fact that they want to 
be cleared as quickly as possible. We want to inspect them as 
efficiently as we can, but we do not wish to put our country in 
jeopardy for the sake of convenience. Finally, I would like to 
acknowledge and thank the new INS Commissioner, Mr. Ziglar, for 
recent expressions of support for INS inspectors. For too long, 
the concerns have taken a back seat to the wide range of other 
issues, such as technology and training. Mr. Ziglar's support 
for law enforcement benefit and pay grade increase will do much 
to improve morale, effectiveness, and retention of our most 
experienced front-line workers. It also represents a 
significant departure for policies of past INS commissioners 
and hopefully will mean a new era of better management. Again, 
we thank you, Mr. Chairman, and members of the committee for 
this opportunity to present our views from the local union.
    [The prepared statement of Mr. Duford follows:]
    [GRAPHIC] [TIFF OMITTED] 81865.028
    
    [GRAPHIC] [TIFF OMITTED] 81865.029
    
    [GRAPHIC] [TIFF OMITTED] 81865.030
    
    [GRAPHIC] [TIFF OMITTED] 81865.031
    
    Mr. Souder. First, thank all three of you for your 
testimony. This is one of the great reasons why we have field 
hearings, as opposed to just in Washington. First we're in and 
out all the time, and here we get to have concentrated 
attention, and we also tend to hear very pragmatic, intense--
it's not even just that the people are different--it's that in 
Washington often they come in and the testimony is just more 
inhibited. Here you each let fly from a number of different 
points, and I have a couple of comments I want to make, then 
I'll yield to Mr. McHugh for questions. But I have quite a few 
questions to followup with, too.
    I want to assure you of a couple of things. One, Mr. Ziglar 
came in aggressively, both in our committee in arguing for the 
law enforcement and pay grade, the pension, but also at a 
meeting sponsored with Chairman Wolfe, and I'm trying to think 
who the ranking Democrat is on the committee, but they had 
about 30 Members there, and he lit a fire of concern about the 
INS, because so many Americans are looking at the border right 
now, and we're--and I need to point out for all of you here 
that authorizing and appropriating are different, and we've 
authorized the new agents. We're appropriating more money, but 
it isn't the same level. That's what's still being battled 
over.
    But the day before he spoke to this group, INS had lost 
five agents, and he pointed out that already there is a 
shortage of applicants, and here we are looking at tripling 
these things, and we're losing people. There was a disconnect 
between the public policy statements and the practical 
pressures that we put on at the grassroots, and that's part of 
what we're trying to do is figure out how to address this 
question.
    A second thing related--similar to that same subject--we're 
going to deal with this week, in airport security, is that when 
we boost one agency, where do people think the employees are 
going to come from? If we've suddenly Federalized all the 
airports and fire all the existing security, what is that going 
to do to State and local law enforcement and the Customs and 
the INS? It's going to be like a giant sucking sound, 
particularly if you have differentials in benefits, that we 
have to think through in these steps of how we're going to 
approach this and how fast somebody can be trained to bring 
into these different things.
    Because what we heard in our hearing 2 weeks ago was that 
37 percent of new employees in the--particularly Customs and 
INS--are from local law enforcement, that 30 percent are 
retired military, and we're trying to keep people from not 
retiring from the military at a time when we're in conflict, 
too. So there's somewhat of a zero-sum game, particularly if 
you need trained people. And we've got to sort through this 
process, make sure our benefit structures are logical, that our 
law enforcement status things are logical, because we're 
clearly facing the pressures.
    And I understand the economic side, but we also need to 
acknowledge that, in fact, Montreal has become a center of some 
of the activities that have been around the country, and we've 
got to watch that clearly, in narcotics. Ecstasy is coming from 
the Netherlands and largely into Canada and into the east 
coast, unlike where we've been so focused, on the southern 
border, with cocaine and heroin, we have a different problem in 
the precurser chemicals and in the ecstasy directly, so it 
isn't even just the current terrorism question, it's the 
narcotics question, as to how we're going to deal with the 
border, but I have some technical followup questions I want to 
ask, but I'll yield to Mr. McHugh at this point.
    Mr. McHugh. Thank you, Mr. Chairman. Quite honestly, I 
can't imagine what I would ask any of these three gentlemen 
that they haven't already told me many times. I even know where 
Thomas buys his ties, so I can't even ask that. But I do want 
to, first of all, let me associate myself with the remarks that 
you made. The candor that you receive at these kinds of 
hearings, I think, are extraordinarily helpful, and help all of 
us to better understand what is happening, where the battles 
are being fought. In places like Champlain, I don't think it's 
tending toward the extreme to say we are fighting the battle, 
and with respect to Mr. Duford and Mr. Keefe, they are on the 
front lines, and I would hope through my comments earlier, it's 
come through the admiration that I hold for those individuals 
who from September 11th have worked so incredibly hard with 
such effectiveness to do a very thankless, but very necessary 
job, and has only grown dramatically since that time.
    I know that Garry is going to be able to provide you with 
data to your heart's content. He has been to Washington, 
testified before other subcommittees in support, and as he 
mentioned, we have had some success, and that's probably due 
more to his persuasiveness, that unlike some, when he's in 
Washington, he speaks about the same way as he does here. So 
the appropriators were very supportive as a result.
    But as he said, as well, we need to do a better job, and I 
think it's--I don't know who scheduled which panels, but I 
think it's illustrative that you would have these three 
individuals sitting at the same table, because there is no 
separating what happens at this border and the resources that 
we provide to the Federal agencies involved there from the 
ability of the business community here in this part of the 
North Country to thrive.
    You don't have to drive too far to the west of this 
particular community to find unemployment figures in the double 
digits, to find economic challenges that are very, very 
perplexing, and in conventional terms, are defying solutions. I 
don't mean to suggest that in this corridor there are not 
challenges, because there are. But this part of New York State 
is doing very well, in relative terms, to other parts of 
certainly my district and other parts of the State. And Garry, 
am I not correct, the unemployment rate here in Clinton County 
is actually below the State level?
    Mr. Douglas. Yes, it is.
    Mr. McHugh. Now, which perhaps may not seem like such an 
achievement, but in this part of the world it truly is one, and 
that's because of this partnership. So I really don't have any 
questions for these individuals, but I just wanted to 
underscore what I attempted to say in my opening comments about 
the need to do better across the board. Facilities has been 
attested to here today, VACIS and other kinds of technology to 
allow them to do an even more effective job, but in my opinion, 
first and foremost, and as Carl mentioned, obviously to bring 
more people on, but we have to address the quality of the 
profession that we ask these professionals to do, as well, and 
again, I know that's why the chairman is here, and I appreciate 
that, so I'd yield back to you.
    Mr. Souder. Thank you. I take it, Mr. Duford, that you 
don't believe that three Coast Guard boats, two of which aren't 
here, are enough to patrol Lake Champlain? Is that a----
    Mr. Duford. I think what I'm talking about mainly is 
crossing from Canada into the United States. Not only do we 
have the Coast Guard, but we have Border Patrol, we have the 
sheriff's patrol up here in the summertime. There's still an 
opportunity at night, you know, during the nighttime for people 
to come across into the United States through Lake Champlain. 
It's been proven it's been done in the St. Lawrence many, many 
times, sneaking aliens across, smuggling across in the night, 
and the time of the year doesn't seem to make any difference. 
Even in the wintertime, they take the chance of trying to cross 
the St. Lawrence River.
    Mr. Souder. We talked about this a little bit yesterday. 
I'm more familiar with Michigan, and as I looked at a 
particular northern peninsula, that as I looked at how we try 
to seal the borders and basically channel people through in as 
orderly and as efficient and as fast as we can, that the 
logical thing is that people who don't want to follow the law 
will bounce outside that system and, for example, Manitou 
Island, as you move up to Sault Ste. Marie, you can't quite 
walk across the water, but it doesn't take much of a rowboat to 
get across. When you go through the islands here and the 
border, what becomes apparent between the two interstates, and 
there's this point, is that there's a corridor coming in 
between two different points. How exactly would you monitor 
this, particularly at night? What would you do?
    Mr. Duford. When they initially built the bridge, it was my 
understanding that the contracting people were willing to put 
up a location for inspections. Why that never materialized, I 
really don't know. As it is now, there's three locations that 
we can go to in Rouses Point to inspect boats, but even during 
the daytime, you can see boats coming down that never come in. 
Were they preinspected by Immigration? Well, we don't know, 
because they just keep going down the waterway. We're not sure. 
We have no idea what it's like at night.
    Mr. Souder. Not having a really good picture of exactly 
what's around the water at different points there or the 
fishing and pleasure boating that goes on in the water, is it a 
border that moves freely? In other words, do fishermen move 
across, people have cottages, go up to a boat marina, for lunch 
at another place? Is this a big tourism factor, too? And how 
much would it inhibit having crossing points or checking 
points? I mean is it feasible? Mr. Douglas, do you have any----
    Mr. Douglas. Yeah, well, I think it is. It is a shared 
lake, two States and two nations, and people do as they do on a 
lake, as you say on a lake, go down to the marina, visit 
Plattsburgh, go back and forth. There are Canadians who have 
second homes, maybe in Vermont and Quebec, for example, and go 
back and forth. And we certainly don't want to inhibit that. 
Also the important thing to understand is that Lake Champlain 
is actually part of a through-way on the water. The Hudson 
River is connected to the Champlain Canal at the south end via 
the State barge, and the Champlain Canal to the north takes 
pleasure craft up and down to the St. Lawrence, so there are 
boats that are going vast distances through the lake on to 
other places.
    But there certainly are solutions. And Dick McCabe, the 
INS' Port Director here, has had a pet project for several 
years that we just haven't been able to have to come together. 
There is a pier over in Rouses Point that would seem a 
reasonable and feasible place to establish a docking place, 
where at least with remote camera technology or so on, Quebec 
visitors could easily stop, check in, be seen, versus just 
going through. What they're expected to do now, in the absence 
of a public place, frankly, is to stop and check in via a 
private marina which charges them to stop, so it isn't rocket 
science to understand that, well, gee, I think I can avoid that 
docking charge; I'm just going to go through. You need to have 
a no-cost public docking place where you expect them to stop 
and make that kind of check-in.
    Mr. Souder. Mr. Keefe, one of the things--because I'm 
interested about the night-running, whether it be snowmobiles 
or boats. We met with some of the Canadians last night. This 
isn't about catching somebody with turkeys where they're 
selling turkeys for additional money. This has become a major 
route, and we heard over in the other side, at Highgate, and 
also from a DEA briefing yesterday afternoon, that we have 
people walking across with backpacks with this really high-
grade Quebec Gold or B.C. bud variations of marijuana, which is 
not really marijuana--it's closer to cocaine than marijuana in 
its content mix--that it is not obviously being supplied for 
this zone. There aren't enough people in this zone, given the 
amount that's coming through. It's predominantly become a major 
route for certain things for New York and Boston. We heard from 
both regions. That we're not--like I say, we're not trying to 
catch this random person who's trying to avoid a Customs 
question. Could you give me your input, from the Customs 
perspective, of particularly narcotics or the smuggling 
individuals across?
    Mr. Keefe. Yes, Mr. Chairman, and may I say you gentlemen 
are very quick learners, because I've been very impressed in 
some of the things that you've said and picked up in the last 
couple of days. I think you have to look at law enforcement, 
and the essence of law enforcement has always been, you know, 
you're not going to have a police officer or a presence at 
every single location. The key--and the word ``seal'' is not 
the appropriate--I agree with Garry: we do not want to seal the 
border, but we want to be able to put the most deterrence there 
to let people know that we are checking. And that can be done 
in a variety of ways, and there are a lot of solutions. There 
is personnel, and we do support, of course, personnel. You 
know, this is our profession. We think we do it very well, but 
we also are pragmatic enough to understand that we're not going 
to put agents and inspectors in every location. So that has to 
be augmented with technology, and that begs the next question 
is it's got--the technology has got to be the latest science. 
It's got to be up-and-running stuff that we can use, and 
there's tons of it out there.
    And I was on the negotiating team with my national unit, 
and we did something with what's called remote video 
inspections. And the concept itself is not a bad idea. Where it 
kind of fell down was the technology was not adequate enough to 
do what we needed to do. You know, to give us a comfort level. 
And I'll never forget, I was in Washington negotiating this, 
and I'll never forget. I was down doing the tourist thing, as 
I've done thousands of times, and I walked by the White House, 
and these cameras that we looked at had a 15-second delay, 
basically. And I said to myself and I said to the people the 
next day, ``I bet you if I jump that fence, by the time I hit 
the ground on the White House grounds, somebody would be on me, 
and I bet you they don't have a 15-second delay in the video 
transmission.''
    And my point is this: they shouldn't. It's very important, 
but it is also very important to do the best deterrence job we 
can do at the border. We don't want to do low-budget at the 
border. I hear a lot about national defense, and I echo that. 
We need a strong military. We need them to be ready, but there 
is no greater presence than those of us that stand on the line 
at the border.
    There are many things we can do. My boss, I know, is 
looking into some infrared technology just to try to see if we 
can get an idea of what's there. But what we have now is 
nothing, you know, and one of the complaints that I have heard 
from the people I represent is, ``Here we are out here doing a 
level one alert, and I'm answering a phone clearing a boat in 
one of the Great Lakes.'' I mean that's just unacceptable.
    Again, we don't want to choke off the legitimate trade, we 
don't want to choke off the legitimate tourist industry, and I 
don't think we have to, but we do have to do something more 
than nothing.
    Mr. Souder. Mr. Duford, in the INS inspectors--and first 
let me thank both INS and Customs people for the amount of 
hours you're putting in. We've learned the hard way in 
Washington where we were focused in this latest anthrax scare 
in our offices, and found out that the postal workers put their 
lives on the line, and we should have been checking at the 
core. For whatever reason, that wasn't suspected that was going 
to happen, but you are at the front lines and we thank you at 
the front lines for trying, in effect, to make the rest of 
America safer, whether it be narcotics or from terrorists.
    But as INS inspectors, if they're working long hours and 
losing their vacation time, does that impact their ability to 
screen, particularly at the end of a shift? Realistically, from 
a human standpoint, what happens?
    Mr. Duford. If we're working extended hours, I'd say toward 
the end of those extended hours, it might possibly do that. I 
know since we've gone at heightened security, our alertness has 
been so much more advanced than it ever has in the past because 
of the concerns of what might be coming into the United States 
through Champlain or one of the smaller ports. I can't vouch 
for anybody else, but I know that the way I do things when I'm 
out there in that primary line and I'm talking to people, I ask 
all the questions that's necessary to ask. I look in that 
vehicle, I go through everything. I don't want to have anything 
come through here and then have it come back and say, well, one 
of our inspectors at the Champlain port of entry, because he 
wasn't doing his job, something came into the United States 
that should not have been in here.
    So I'd say probably after working a double shift, maybe 
toward the end of that double shift, maybe my alertness is not 
going to be quite the same, but as of what happened after 
September 11th, I'm in a lot more heightened security, and I 
believe the rest of our people are, too.
    Mr. Souder. It's a question of how much you can push your 
adrenaline button for how long. It's a human physical question. 
It isn't a desire or confidence question. If you continually 
tax people, it is human nature--I mean we probably become a 
little less concerned about the particulars of an amendment 
that's offered when they haul us in at 2 a.m., than if it's in 
the middle of the afternoon. And there's a question of safety 
risks here, too, as we continue to use employees the way they 
are.
    Let me ask you a couple other questions. In the physical 
changes here at this particular border crossing, do you see 
fencing and lighting additionally required? What equipment 
would you focus on most to assist the INS?
    Mr. Duford. In the last year our technology at Champlain 
has increased a lot. I'll give you an example. We have license 
plate readers now which we never had before, and as a result of 
this--and the technology of these computers is quite advanced--
I don't have to spend my time reading the license plate and not 
being able to look at that individual when I try to talk to 
him. Now I can look at that person and I can look at him in the 
eye, and I only have 30 or 45 seconds that might tell me this 
person has to go in for a secondary. There's something not 
quite right about this person; we're going to have to send him 
in. Where before, the technology was basically ourselves. We're 
down there, we're typing the license plate in before we ever 
look at the person, and by the time we got done, we were just 
about finished with our questions. I think the lighting has 
improved quite a bit, which is really necessary for what we do, 
especially at night. For some of us older people, it's hard to 
see things that we can see during the daytime. The lighting, 
the license plate readers and all the other technology that we 
have out there in that line to help us do things, it's 
increased quite a bit, and instead of having one officer on the 
primary now, we now have two officers, so you've got one 
officer that's asking questions and doing the computer work; 
we've got another officer that's actually taking a look inside 
the vehicle, the van, the car, the truck, whatever it is, and 
looking in the trunk, inspecting the trunk. So we've basically 
doubled, since September 11th, what we're doing out there on 
that line, and I think it's been for the better.
    Mr. Souder. Mr. Douglas, one of the things we're looking 
at, clearly we're going to do more of the Fast Pass 
preclearance, that type of thing, particularly if we have to 
either stay at level one or even tighten further on the border, 
which could happen. The question then comes is how can we move 
the regular commerce, how can we get additional lanes, I mean 
what do we need to do to try to not get the backup, but in the 
Fast Pass system yesterday one of the things we heard is that 
within the last week on the Vermont border, one of the major 
drug busts was somebody who in fact was a regular person who 
was going across on a long-term basis.
    And let me ask you a couple of questions, if you could take 
this back to your group as to how to address these. What type 
of penalty would you have for the company if one of--if they 
had a Fast Pass system and were precleared and a driver came 
through? Would you suspend that for 5 years, for the entire 
company, what about if it's--my understanding is sometimes the 
cab is privately leased, and sometimes--and then they hire 
different trailers on. How would you address this question to 
make sure there is a disincentive, or an incentive, that the 
companies themselves are closely checking with their contracted 
employees, because this is going to undermine the credibility 
of that system if in fact, for the violators--now, they're 
going to be rare, and there will be spot checks, but it is a 
fundamental challenge to the Fast Pass system.
    Mr. Douglas. Well, actually I suggest that's when it comes 
to commercial traffic, and Tom, disagree with me if you do, 
that the real challenge, more than the companies or the 
shippers or the customs brokers or the things that are in the 
truck coming down the road, the challenge and concern is more 
frequently around the driver.
    Mr. Keefe. Yes.
    Mr. Douglas. Because the driver's perhaps more apt to be 
the one who's trying to get away with something and gee, I'll 
take something across the border in the cab with me unbeknownst 
to the company or the others dealing with the progress, which 
argues for the fact that we're certainly not, in the 
foreseeable future, going to get to the point where trucks are 
going to plow down the road without stopping at the border, 
even though you know you've precleared all the cargo and you 
have no high concern about that. Because you're still going to 
have those concerns about the drivers, and no matter how much 
you try to work with the shippers, with the trucking companies, 
to try to preclear or toughen background checks or so on--and I 
think some of that probably does need to be done--the reality 
is going back to something you referred to earlier with getting 
Federal workers to do jobs: there's a crisis in this country 
and Canada to get truck drivers, so it almost has come to the 
point, do you have a pulse and are you willing to drive the 
truck and can you pass the driver's test? There's high 
turnover. It's endemic to the whole country and to Canada, as 
well, and that means that you're not going to have the 
stability or predictability with the actual drivers that you 
may have had 20 or 30 years ago. And it's a challenge. I don't 
know that there's an easy answer. I think you would have to be 
careful, though, in that context of thinking that the answer is 
simply, well, let's penalize the company if some trucker 
happens to be driving a truck with their shipment and is trying 
to get away with something, because there's a degree to which 
they can't control that, and particularly in an environment of 
current labor market for truck drivers, at the end of the day, 
somebody's got to take that truck down the road. So there just 
needs to be vigilance at facilities like this, with adequate 
staffing and technology to check those things and to have that 
kind of deterent that Tom referred to.
    Mr. Souder. Mr. Keefe, one more question--and you can 
comment on that last one as well--to kind of do a supplement to 
the last one. And my last question, that in the trying to get 
the truckers accelerated, if a company is precleared, that 
they're generally doing it, you're still going to have to do 
checking. And last night we were looking at the differences if 
they leave gaps in their loads it's easier to check, other 
types of things, because it doesn't do a whole lot of good to 
preclear the company, if in effect the drivers are the people 
at risk.
    I'd like to hear your comments on that, but then the last 
question is, I take it that I will be meeting with Border 
Patrol before I head back to Washington, too, at their inland 
office, as well as the Coast Guard, so we're doing that as a 
supplement and get those things in the record, but part of the 
problem here is that this is--I'm trying to figure out how much 
this is going to be a problem along multiple parts of the 
northern border and potentially the southern border. Because 
Indian reservations and Indian nations are treated as 
independent nations, there's a different standard for law 
enforcement. At the same time, that has predominantly been--for 
internal regulation reasons, we haven't had this extent of 
concern about smuggling. Now, smuggling is one thing, in the 
traditional types of smuggling. As we move to more serious 
types of narcotics and as we potentially push more toward those 
ones that are joint along a border, particularly if it's on 
both sides of the border, it becomes really problematic, which 
I understand an island in the river is a Canadian First 
Nation's group, so you have it on both sides, and it really 
becomes a potential problem without a lot of cooperation if 
also terrorists move through that area.
    If you could give me some suggestions on how great you 
think the problem is, how vulnerable, the cooperation that 
you've had, other suggestions to deal with that, as well as 
walk-across questions or the whole range of if you squeeze it 
at one point, besides Lake Champlain and the Indian 
reservation, where else would be points vulnerable?
    Mr. Keefe. If I could just comment on what Garry said, he's 
absolutely right, and what's kind of ironic, when we built this 
new port project is even people I deal with in my union in 
Washington is amazed how the chambers of commerce and people in 
the union could actually go down the same road together, and 
we've been down the same road together and we have more in 
common on this issue than we do in opposition. And he's 
absolutely right about the drivers, and again, you have to kind 
of jump back and take a forest or the trees look and say you're 
never going to be able to stop everything, you're never going 
to be able to get 100 percent certainty. The essence of law 
enforcement is to put the best deterrent forward that you can, 
and if we can do that type of stuff, we will screen most of the 
drivers. The freight that is precleared, that is a separate 
issue to the conveyance, and that is also a time-consuming 
issue when they cross the border. There's the people that cross 
the border and there's the conveyance and the merchandise that 
cross the border, so if we can preclear some of this stuff and 
have a reasonable certainty that this is in compliance with 
law, that takes a lot of time and allows us to focus then on 
the driver. And we're very good at focusing on the driver.
    If you properly manage your caffeine, you can do it a 
little better than other people can. But you may miss, like you 
said at Congress at 2 a.m., there may be some nuances you're 
going to miss, but you're not going to miss a big thing, I 
don't care how tired you are. You do it every day. So if we can 
focus on those kinds of, like Detroit, the big three, there's a 
GM shipment that we're going to want to look at, and if we can 
preclear that, then we can focus our attention on the driver. 
So they're not mutually exclusive. You don't want to say, why, 
if I'm going to have driver problems anyway, should we bother 
with the preclearance? You still get a net gain, is my point, 
on the drivers. You don't want to throw the baby out with the 
bathwater on that.
    About the reservation, while they are separate entities, I 
find our biggest problem is putting resources to the problem. 
It's not that we have a lack of problem. Many sovereign nations 
do not want to participate in illegal activity. They do not 
want their land used to engage in smuggling. There's always a 
very small amount of people, whenever you have anything for 
profit, back to the bootlegging days, will try to smuggle, and 
if we can get some type of technology, human resources--or the 
best solution, I think, is a combination of both--then you 
have--again, you're not there all the time, you're not going to 
be there all the time. You're going to be there enough where 
people are going to think before they do this type of stuff, so 
you're going to have a reduction in what they're doing.
    And it is a problem with people walking around. Marijuana--
the active component in marijuana is THC, and back when 
marijuana first broke in this country, the rate of THC was 3 or 
4 percent. What's grown now is hydroponic marijuana. The 
component of THC is now up to 40, 50 percent, I mean it is so 
potent it is frightening.
    You talk about ecstasy. This port had an internal carrier, 
which is unheard of, somebody that swallows drugs in condoms or 
in latex wrappings and then dispels them at a later time. We 
actually caught one here smuggling ecstasy, so I mean ecstasy 
is a big-ticket item. It comes in from Europe here. We don't do 
enough to target--and again, it's just a question of personnel 
and getting us all working together.
    We have resources in Canada, we could target some of the 
European flights. We could do a better job. It's not an 
impossible job. It's a daunting job, but it's not impossible.
    The walkers--and again, when you squeeze one place or 
another, the unfortunate thing about these borders is they were 
designed back in the--you know, the turn of the century, and to 
have a border was a status thing. If you take South Dakota, for 
example--where there's a border and there's 400 miles of trees 
and bears and that's it--that's not the case here. You will 
have a border crossing in Mooers, and as the crow flows, 
another mile west you have another border crossing. If you put 
up the wrong technology at these border stations, you will 
actually force people to try to beat the system instead of 
vice-versa, because the roads are all so intertwined and close 
together. It's not like a vast wilderness. There's all these 
ports that are kind of clustered along the border.
    We have to make some decisions. If we want to keep these 
open, and I believe we do, we have to staff them adequately, 
and I don't think we will choke anything off, per se. 
Conversely, if we put technology that is conducive to trying to 
be beat at one of these places, we will take it and put it to 
those locations, because it's not that far out of the way.
    Mr. Souder. Thank you. Do you have any other?
    Mr. McHugh. Just one question. Thomas, you talked about 
your canine officers. Is my understanding correct that your 
access to a dog now is a dog that is trained for drugs only; is 
that true?
    Mr. Keefe. That's correct.
    Mr. McHugh. So if you have an occasion where there is a 
suspected explosive, as I understand happened a few weeks ago, 
you actually have to bring a dog team either from Albany or 
Fort Drum?
    Mr. Keefe. Or actually, in that instance, Congressman, we 
were lucky enough to get a canine team from Montreal that came 
down here.
    Mr. McHugh. Or the Canadians?
    Mr. Keefe. Yeah, or the Canadians.
    Mr. McHugh. So, Mr. Chairman, it seems like a simple thing, 
but there's a potential, particularly in the winter, which in 
spite of how you feel about it, is not here as yet, if they 
find a suspected package on this crossing, it could literally 
close it down for 3, 4, perhaps more hours while we're awaiting 
the arrival of a dog just to sniff something that we hope turns 
out to be, you know, baked cookies for Thanksgiving or 
something. So another small dedication of resources that could 
be shared, as Tom has said, amongst a number of points here, if 
you had a location of a dog team that had the explosive 
capabilities.
    Mr. Souder. Yes, Mr. Douglas?
    Mr. Douglas. If I can, I want to clarify some numbers that 
you asked for earlier, and I don't know how important it is, 
but you were looking for the impact on traffic figures here at 
Champlain. Actually, if you were to look at the truck and 
passenger car counts here for September 2000, compared to 
September 2001, they're almost right on the penny, which would 
lead you to believe that well, it really has had no impact, 
traffic has held up. But the fact is, if you would then look at 
June, July and August, would see that for passenger car 
traffic, it was up 20 percent from a year earlier, and truck 
traffic was up significantly as well, so what we lost was the 
continuing growth rate in that traffic, but we are still--those 
folks are in fact still working with numbers here that are 
equal to what they were working with a year before. And as far 
as that loss, of course, that's something that we want to get 
back as soon as possible.
    Mr. Souder. Do you have any idea how much that was 
softening in the recession?
    Mr. Douglas. It hadn't been up until September.
    Mr. Souder. So in August, it was still----
    Mr. Douglas. Yes, in August the car counts were up 
approximately 20 percent.
    Mr. Souder. Well, I thank each one of you, and as you have 
additional information and suggestions, we're kind of in a 
short-term fast track in Washington, and I would assume that--
who knows where we're going to be, but we're not in a short-
term war on terrorism and drugs. The war on terrorism is now 
going to find out how difficult those who said we weren't 
succeeding in the war on drugs are now going to get a feeling 
for what it feels like to try to catch every terrorist. Similar 
to like fighting child abuse or rape or spouse abuse, we fight 
those things because they're evil, not that we're going to 
completely defeat them.
    We have direct authorizing end oversight on the narcotics 
question, so we spent a lot of time in South America, and what 
we've seen is you put the pressure on in Colombia, then it 
moves back to Peru and Ecuador and starts to move other places, 
and try to get a step ahead so we don't get in the Vietnam 
syndrome of where we're just far enough behind that we have to 
keep escalating. And that's what we're trying to do here, and 
to do it that way, because Americans want to be safer, but they 
also want to have jobs and they want to be home and pay their 
health insurance and do this in a way as our countries become 
more interdependent.
    I'm not from a border area, and we've lost a ton in NAFTA 
to Mexico, but we've had our trade in Canada, and it's an auto 
belt. These parts are moving back and forth multiple times a 
day, and the entire Nation is finding out how interconnected we 
are, both in a bad way and a good way, so hopefully we can 
continue to look at this.
    Thank you for your testimony, and with that, our hearing is 
adjourned.
    [Note.--The publication entitled, ``Investing in the 
Futures, The Customs Action Plan, 2002, 2004,'' may be found in 
subcommittee files.]
    [Whereupon, at 12 p.m., the subcommittee was adjourned.]
    [Additional information submitted for the hearing record 
follows:]
[GRAPHIC] [TIFF OMITTED] 81865.032

[GRAPHIC] [TIFF OMITTED] 81865.033

[GRAPHIC] [TIFF OMITTED] 81865.034

[GRAPHIC] [TIFF OMITTED] 81865.035

[GRAPHIC] [TIFF OMITTED] 81865.036

[GRAPHIC] [TIFF OMITTED] 81865.037

[GRAPHIC] [TIFF OMITTED] 81865.038

[GRAPHIC] [TIFF OMITTED] 81865.039

[GRAPHIC] [TIFF OMITTED] 81865.040

[GRAPHIC] [TIFF OMITTED] 81865.041

[GRAPHIC] [TIFF OMITTED] 81865.042

[GRAPHIC] [TIFF OMITTED] 81865.043

[GRAPHIC] [TIFF OMITTED] 81865.044

[GRAPHIC] [TIFF OMITTED] 81865.045

[GRAPHIC] [TIFF OMITTED] 81865.046

[GRAPHIC] [TIFF OMITTED] 81865.047

[GRAPHIC] [TIFF OMITTED] 81865.048

[GRAPHIC] [TIFF OMITTED] 81865.049

[GRAPHIC] [TIFF OMITTED] 81865.050

[GRAPHIC] [TIFF OMITTED] 81865.051

[GRAPHIC] [TIFF OMITTED] 81865.052

[GRAPHIC] [TIFF OMITTED] 81865.053

[GRAPHIC] [TIFF OMITTED] 81865.054

[GRAPHIC] [TIFF OMITTED] 81865.055

[GRAPHIC] [TIFF OMITTED] 81865.056

[GRAPHIC] [TIFF OMITTED] 81865.057

[GRAPHIC] [TIFF OMITTED] 81865.058

[GRAPHIC] [TIFF OMITTED] 81865.059

[GRAPHIC] [TIFF OMITTED] 81865.060

[GRAPHIC] [TIFF OMITTED] 81865.061

[GRAPHIC] [TIFF OMITTED] 81865.062

[GRAPHIC] [TIFF OMITTED] 81865.063

[GRAPHIC] [TIFF OMITTED] 81865.064

[GRAPHIC] [TIFF OMITTED] 81865.065

[GRAPHIC] [TIFF OMITTED] 81865.066

[GRAPHIC] [TIFF OMITTED] 81865.067

[GRAPHIC] [TIFF OMITTED] 81865.068

[GRAPHIC] [TIFF OMITTED] 81865.069

[GRAPHIC] [TIFF OMITTED] 81865.070

[GRAPHIC] [TIFF OMITTED] 81865.071

[GRAPHIC] [TIFF OMITTED] 81865.072

[GRAPHIC] [TIFF OMITTED] 81865.073

[GRAPHIC] [TIFF OMITTED] 81865.074

                                   - 

</pre></body></html>
